<html>
<title> - HURRICANE KATRINA AND COMMUNICATIONS INTEROPERABILITY</title>
<body><pre>[Senate Hearing 109-1138]
[From the U.S. Government Printing Office]





                                                       S. Hrg. 109-1138

                           HURRICANE KATRINA
                  AND COMMUNICATIONS INTEROPERABILITY

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 29, 2005

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]









                  U.S. GOVERNMENT PRINTING OFFICE
  66-932 PDF              WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001













       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                     TED STEVENS, Alaska, Chairman
JOHN McCAIN, Arizona                 DANIEL K. INOUYE, Hawaii, Co-
CONRAD BURNS, Montana                    Chairman
TRENT LOTT, Mississippi              JOHN D. ROCKEFELLER IV, West 
KAY BAILEY HUTCHISON, Texas              Virginia
OLYMPIA J. SNOWE, Maine              JOHN F. KERRY, Massachusetts
GORDON H. SMITH, Oregon              BYRON L. DORGAN, North Dakota
JOHN ENSIGN, Nevada                  BARBARA BOXER, California
GEORGE ALLEN, Virginia               BILL NELSON, Florida
JOHN E. SUNUNU, New Hampshire        MARIA CANTWELL, Washington
JIM DeMINT, South Carolina           FRANK R. LAUTENBERG, New Jersey
DAVID VITTER, Louisiana              E. BENJAMIN NELSON, Nebraska
                                     MARK PRYOR, Arkansas
             Lisa J. Sutherland, Republican Staff Director
        Christine Drager Kurth, Republican Deputy Staff Director
                David Russell, Republican Chief Counsel
   Margaret L. Cummisky, Democratic Staff Director and Chief Counsel
   Samuel E. Whitehorn, Democratic Deputy Staff Director and General 
                                Counsel
             Lila Harper Helms, Democratic Policy Director













                            C O N T E N T S


                              ----------                              
                                                                   Page
Hearing held on September 29, 2005...............................     1
Statement of Senator Boxer.......................................     2
Statement of Senator Dorgan......................................     4
Statement of Senator Lautenberg..................................    32
    Prepared statement...........................................    34
Statement of Senator Pryor.......................................    38
Statement of Senator Rockefeller.................................     3
Statement of Senator Stevens.....................................     1
Statement of Senator Sununu......................................     4

                               Witnesses

Boyd, David G., Ph.D., Director, Office for Interoperability and 
  Compatibility, Department of Homeland Security.................     9
    Prepared statement...........................................    11
Carter, Willis, First Vice President, Association of Public 
  Safety Communications Officials, International (APCO); Chief of 
  Communications, Shreveport Fire Department.....................    16
    Prepared statement...........................................    18
Moran, Kenneth, Acting Director, Office of Homeland Security, 
  Enforcement Bureau, Federal Communications Commission..........     4
    Prepared statement...........................................     6
Orr, Dereck, Program Manager, Public Safety Communications 
  Systems, National Institute of Standards and Technology........    22
    Prepared statement...........................................    24

                                Appendix

Inouye, Hon. Daniel K., U.S. Senator from Hawaii, prepared 
  statement......................................................    41
Nelson, Hon. Bill, U.S. Senator from Florida, prepared statement.    41

 
         HURRICANE KATRINA AND COMMUNICATIONS INTEROPERABILITY

                              ----------                              


                      THURSDAY, SEPTEMBER 29, 2005

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:02 a.m. in 
room SD-562, Dirksen Senate Office Building, Hon. Ted Stevens, 
Chairman of the Committee, presiding.

            OPENING STATEMENT OF HON. TED STEVENS, 
                    U.S. SENATOR FROM ALASKA

    The Chairman. We have a whole number of conflicts this 
morning, gentlemen, not the least of which is the final 
statements on the floor for the nomination of Judge Roberts, 
but also we have several conference committees meeting. And I 
doubt we're going to have great attendance here today. But the 
Senator from California and I might be able to stir it up a 
little bit.
    [Laughter.]
    The Chairman. We're going to have government witnesses this 
morning, and the afternoon witnesses will be industry 
witnesses. The afternoon session is scheduled to start at 2:30.
    The recent hurricanes have shown that many first responders 
just cannot talk with one another, because their radios and 
communication networks have been inoperable. Achieving 
interoperability requires a great many things--coordination, 
planning, and training; expert equipment; proper standards; and 
the spectrum to make certain they have the best available 
communications.
    Now, this is important, because, on a specific date, the 
broadcasters will be required to give their first responders 24 
MHz of new spectrum in a 700 MHz band, including a portion of 
that for interoperability, exclusively. This Committee is 
working on that bill. We hope to be able to consider it next 
week. And we hope that will bring about some additional funds 
that we may be able to use to deal with the interoperability 
problems.
    And I do want to thank the Louisiana delegation for their 
participation in this hearing. Senator Vitter agreed to chair 
the afternoon portion, because we have an appropriations bill 
on the floor this afternoon.
    Let me turn to Senator Boxer to see if she has any 
comments.

               STATEMENT OF HON. BARBARA BOXER, 
                  U.S. SENATOR FROM CALIFORNIA

    Senator Boxer. Could you just repeat? You said there's 
going to be a bill that deals with interoperability. Could you 
just--I'm sorry, I was looking at my statement. I didn't hear 
the details of what you said.
    The Chairman. If you're talking about the DTP bill, we're 
still wondering whether we can get the other bill done in time 
to take it up at the same time.
    Senator Boxer. Thank you.
    Well, Mr. Chairman, thank you very much for holding this 
hearing to shine a light on a shocking deficiency in our 
emergency communications system. And the time to find a 
solution is now. It was really yesterday. As a matter of fact, 
it was the day before yesterday, and we still haven't done it. 
We didn't learn our lesson after the 1993 World Trade Center 
bombing. We didn't learn it after September 11. The wildfires 
raging in California almost 2 years ago didn't teach us. And, 
parenthetically, I'm sad to report we've got a wildfire raging 
out of control, 9,000 acres, as we speak here, near Los 
Angeles, in the--not the very populated areas, but threatening 
populated areas. And, of course, as you mentioned, Hurricane 
Katrina shone a light on this.
    First-responders to all these disasters were so challenged 
by the lack of interoperable communications that hundreds of 
lives were unnecessarily and tragically lost. And some of those 
lives are first responders themselves. Enough is enough. We 
don't need any more failures.
    I'd like to just show you--and I only have 2 minutes left 
in my remarks--a chart here, Mr. Chairman. And I'd like the 
Chairman to take a look at this. If there was an accident on 
the Golden Gate Bridge, something really terrible, an emergency 
on the Golden Gate Bridge--and we know that our bridges have 
been targeted by al Qaeda, to just mention that--there are 17 
different agencies that will respond to such--and they're all 
terrific. And they include the U.S. Coast Guard, they include 
local people, State people, and the rest--fire departments, 
police, highway patrol. Every one of these agencies is stellar. 
But most of them can't talk to one another. It's just really 
wrong. We have to fix it, it seems to me.
    The Chairman. Senator, would you allow me to interrupt you?
    Senator Boxer. Yes.
    The Chairman. Do you know why? They all buy their radios 
from the lowest bidder.
    Senator Boxer. Well, maybe we have to look into that.
    The Chairman. Yes.
    Senator Boxer. I tried to get funds for interoperable 
communications systems as part of the Rail Security bill. This 
Committee responded, everyone on this committee. But, somehow 
or other, it was dropped over in the House. And then, a really 
wonderful thing happened. In the intelligence bill--reform 
bill, with Senator McCain's help, we did pass an authorizing 
program for $300 million a year, and again it was dropped, in 
conference.
    So, we cannot seem to go right over that goal line, and 
that's what we need to do. And I hope, Mr. Chairman, because 
you are effective and such an important Member of the Senate, 
with your help we will not ignore this anymore. If there are 
problems with procurement, if we have to look at those things, 
absolutely we should.
    Thank you very much.
    The Chairman. Thank you.
    Our first panelist, Dr. Kenneth Moran, who's the Acting 
Director of the Office of Homeland Security, Enforcement 
Bureau, of the Federal Communications Commission; Dr. David 
Boyd, who is the Director of the Office for Interoperability 
and Compatibility, Department of Homeland Security; Willis 
Carter, of the Association of Public-Safety Communications 
Officials, APCO, and the Chief of Communications of the 
Shreveport Fire Department; and Dereck Orr, the Program Manager 
of the Public Safety Communications Systems, National Institute 
of Standards and Technology. I'm sorry if I read them as 
they're not seated at the table.
    First, we will call on Senator Rockefeller to see if he has 
an opening statement.
    Senator Rockefeller. Oh, thank you, Mr. Chairman.
    The Chairman. I didn't see you.
    Senator Rockefeller. I yield to Senator Sununu.
    The Chairman. Were you here first? Sorry.
    Senator Sununu. Under no circumstances would that be 
appropriate. Go ahead, Senator.

           STATEMENT OF HON. JOHN D. ROCKEFELLER IV, 
                U.S. SENATOR FROM WEST VIRGINIA

    Senator Rockefeller. Just to be very brief, the Conference 
of Mayors 2004 surveyed 192 cities: 44 percent reported an 
accident within the preceding year in which the lack of 
interoperable communications made response difficult, 49 
percent of the cities are not interoperable with State police, 
60 percent are not interoperable with their State Emergency 
Operations Centers, 83 percent are not interoperable with the 
Federal law enforcement agencies--to wit, FBI, ATF, Border 
Patrol, et cetera--89 percent believe that funding is the most 
significant way out of that.
    We did have a couple of votes on the issue, which failed 
last year. And what happened in the Gulf Coast, I'm seeing on a 
much, much smaller scale in West Virginia. Everything is 
communication. Everything is communication. Leaders can't be 
leaders, mayors can't be mayors, governors can't be governors, 
county commissioners can't be county commissioners, much less 
EMS, unless they have a system that works and unless they can 
talk to each other.
    I just think what's happening, Mr. Chairman, is just an 
enormous statement that if we want America to be strong, we've 
got to start right here in our own country, and we've got to 
start with the protection of our people. And that's called 
protecting our people in times of disasters of various sorts. 
And that's not just weather, that's--that can do with dirty 
war, you know, dirty bombs, things of that sort.
    So, this is a very important hearing. Thank you.
    The Chairman. Senator Sununu?

               STATEMENT OF HON. JOHN E. SUNUNU, 
                U.S. SENATOR FROM NEW HAMPSHIRE

    Senator Sununu. Thank you, Mr. Chairman.
    This is not my area of expertise, but I think, like most 
Americans, I assumed that the Federal support and assistance 
regarding interoperability had a bigger impact, at least than 
it appears to have had in the wake of Hurricane Katrina. I 
note, in one of the statements presented today, that the figure 
of $1.5 billion is highlighted, money that's already been made 
available to state and local governments to deal with this 
problem. I know billions more have been made available for 
equipment grants through the COPS FAST and other equipment-
based programs. There has been dramatic assistance to state and 
local agencies to deal with interoperability. And it is very 
unclear to me why we are so far behind the curve, or seem to be 
so far behind the curve, still today. I think everything that I 
have seen and read, and personal visits I have made with public 
safety officials at the state and local level indicate this is 
not new technology, that we are not trying to reinvent the 
wheel here. We're trying to develop or implement basic 
standards, basic systems so that we have the most seamless 
interaction between first responders and public safety 
officials at Federal, State, and local level.
    And I hope that the testimony today will provide some 
honest, objective clarity as to why we haven't done more to 
achieve progress in this area with all of the money that's 
already been made available.
    Yes, there may be need for additional resources. I think 
first we need an honest accounting of how the money that has 
been made available for this purpose has been used, and why 
more hasn't been done with it.
    Thank you, Mr. Chairman.
    The Chairman. Could we now proceed with the statements?
    Senator Dorgan, do you wish to make an opening statement?

              STATEMENT OF HON. BYRON L. DORGAN, 
                 U.S. SENATOR FROM NORTH DAKOTA

    Senator Dorgan. No, thank you. Not at this time.
    The Chairman. Thank you very much.
    Our first witness is Kenneth Moran.
    Mr. Moran?

          STATEMENT OF KENNETH MORAN, ACTING DIRECTOR,

        OFFICE OF HOMELAND SECURITY, ENFORCEMENT BUREAU,

               FEDERAL COMMUNICATIONS COMMISSION

    Mr. Moran. Good morning, Chairman Stevens and distinguished 
Members of the Committee.
    My name is Ken Moran, and I serve as the Director of the 
Federal Communications Commission's Office of Homeland 
Security. I welcome this opportunity to discuss the ongoing 
efforts of the Commission to promote and facilitate effective 
public safety communication, as well as interoperability.
    The Commission has taken several steps over the last few 
years to promote interoperability, which we define as radio 
communications between public safety agencies, usually of 
different jurisdictions, in furtherance of both day-to-day and 
emergency operations. To further interoperability, the 
Commission has provided additional spectrum to public safety 
entities, we've promoted technological developments that 
enhance interoperability, and we have provided our expertise 
and input on a number of interagency efforts.
    The Commission has designed approximately 97 MHz of 
spectrum for mobile public safety use throughout the country. 
This includes spectrum in the 150 MHz band, the 450, 700, 800 
MHz bands, and the 4.9 GHz band.
    The Chairman. We can't quite hear you. Can you pull that 
mike toward you a little bit?
    Mr. Moran. OK. Sorry, Senator.
    In addition, the Commission has designated certain channels 
in these bands specifically for interoperability. Frequencies 
designated for interoperability include channels in the 150 
MHz, 450 MHz, 700 MHz, and 800 MHz bands.
    In addition, although not specifically designated for 
interoperability, the 4.9 GHz band rules foster 
interoperability by providing a regulatory framework where 
traditional public safety entities can pursue strategic 
partnerships with others, including critical infrastructure 
entities, as necessary for the completion of their missions. 
Also, once the 800-MHz transition is complete, public safety 
entities will also have access to another 4.5 MHz of spectrum 
in the 800 band.
    The Commission also has developed policies and rules to 
promote the sharing of spectrum. For example, the Commission's 
rules permit the shared use of radio stations where licensees 
may share their facilities on a nonprofit, cost-shared--with 
other public safety organizations, including Federal Government 
entities.
    In addition to facility interoperability on a regional 
basis, the Commission has reallocated television spectrum for 
public safety use in several cities. For example, the 
Commission recently reallocated spectrum in New York City.
    The Commission has also modified its rules to eliminate 
regulatory barriers to help speed introduction of software-
defined radio technology. Radios traditionally have been built 
with unalterable hardware components that perform specific 
functions. SDR technology allows radios to cover mobile 
frequency bands and signal formats by simply sending different 
software instructions to a microprocessor, instead of using 
additional frequently bulky and heavy parts. Because software-
defined radios can use multiple frequency bands, including 
those designated for interoperability, they can be an important 
vehicle for improving interoperability for public safety 
communications systems.
    Although this technology is not yet widely available for 
public safety use, we are aware, through the SDR forum, that 
public safety entities and industry are actively exploring 
these applications.
    The Commission works with other Federal agencies in 
promoting public safety communications and interoperability. 
For example, the Commission has worked with the Department of 
Homeland Security's National Communication System and 
telecommunications providers to establish a regulatory 
framework that would facilitate wireless priority access 
service. Wireless priority services are especially important 
during major disasters and emergencies when wireless networks 
are often congested. Under the wireless priority active service 
rules, authorized national security and emergency preparedness 
personnel, such as first responders, may obtain access to the 
next-available wireless channels to originate calls.
    The Commission has also been working closely with the 
Information Administration and the Department of Homeland 
Security's NCS and SAFECOM to pursue initiatives that would 
advance the common goal of improving public safety 
communications interoperability. As a result of this 
collaboration, Federal, State, and local governments have 
entered into strategic partnerships to plan, fund, and 
implement shared communications systems.
    As directed by the Intelligence Reform and Terrorism 
Prevention Act of 2004, the Commission is conducting a study to 
assess the spectrum needs of emergency-response providers. As 
part of this study, the Commission, NTIA, and DHS have 
established a working group to facilitate the Commission's 
assessment of the short-term and long-term needs for allocation 
of additional portions of spectrum for Federal, State, and 
local emergency-response providers.
    In light of recent events, we are also looking closely to 
determine what steps we can take to address this critical need. 
Recently, Chairman Martin announced his intention to create an 
independent expert panel to review the impact of Hurricane 
Katrina on the communications infrastructure. This panel will 
be composed of public safety and communications industry 
representatives, and will make recommendations to the 
Commission regarding ways to improve disaster preparedness, 
network reliability, and communications among first responders, 
such as police, fire, and emergency medical personnel. This 
panel will specifically be tasked with making recommendations 
regarding interoperability.
    In closing, the Commission will continue to work with other 
Federal agencies in the public safety community to identify 
ways in which it can promote and facilitate enhanced 
interoperability.
    I'd be happy to respond to your questions.
    Thank you.
    [The prepared statement of Mr. Moran follows:]

    Prepared Statement of Kenneth Moran, Acting Director, Office of 
     Homeland Security, Enforcement Bureau, Federal Communications 
                               Commission
Introduction
    Mr. Chairman and members of the Subcommittee:
    Good morning. I am Kenneth Moran, Acting Director of the Federal 
Communications Commission (Commission) Enforcement Bureau's Office of 
Homeland Security. I welcome this opportunity to appear before you to 
discuss the Emergency Alert System, or EAS.
    The Commission is well aware that an effective public alert and 
warning system is an essential element of emergency preparedness, and 
that such a system is impossible without effective communication and 
coordination within the Federal Government, as well as with the active 
participation of the states and the private sector. Accordingly, the 
Commission has been working with other Federal agencies, state 
governments, and industry to ensure that the American public is 
provided with a robust, efficient, and technologically current alert 
and warning system.
Background
    The forerunner of our current Emergency Alert System originated in 
the early days of the Cold War when President Truman established the 
``CONELRAD'' system as a means to warn the public of an imminent 
attack. Since that time, CONELRAD has given way to the Emergency 
Broadcast System, which in 1994 was replaced by EAS. From the early 
CONELRAD days to the present, the Commission has played a critical role 
in ensuring that the President of the United States would be able to 
communicate with the American public in the event of a national 
emergency. Today's EAS uses analog radio and television broadcast 
stations, as well as wired and wireless cable systems, to deliver a 
national Presidential message. When activated, EAS would override all 
other broadcasts or cable transmissions, national and local, to deliver 
an audio Presidential message. This system is mandatory at the national 
level, but is also available on a voluntary basis for states and 
localities to deliver local emergency notifications.
    The Commission, in conjunction with the Federal Emergency 
Management Agency (FEMA) and the National Weather Service (NWS), 
implements EAS at the Federal level. Our respective roles currently are 
based on a 1981 Memorandum of Understanding between FEMA, NWS, and the 
Commission, on a 1984 Executive Order, and on a 1995 Presidential 
Statement of Requirements.
    The Commission's EAS rules are focused on national activation, and 
the delivery of a Presidential message. The Commission's rules 
prescribe: (1) technical standards for EAS; (2) procedures for radio 
and television broadcast stations and cable systems to follow in the 
event EAS is activated; and (3) EAS testing protocols. Under the rules, 
national activation of EAS for a Presidential message is designed to 
provide the President the capability to transmit from any location at 
any time within ten minutes of the system's activation, and would take 
priority over any other message and preempt other messages in progress. 
Currently, only analog radio and television stations, and wired and 
wireless cable television systems, are required to implement the 
national EAS. Other systems, such as digital television (DTV), Direct 
Broadcast Satellite television (DBS), Low Earth Orbit (LEO) satellite 
systems, paging, Satellite Digital Audio Radio Service (SDARS), and In-
Band-On-Channel Digital Audio Broadcasting (IBOC DAB) are currently not 
required to participate in EAS.
    The decision to activate the national-level EAS rests solely with 
the President. FEMA acts as the White House's executive agent for the 
development, operations, and maintenance of the national level EAS and 
is responsible for implementation of the national level activation of 
EAS, as well as EAS tests and exercises.
    EAS is essentially a hierarchical distribution system. FEMA has 
designated 34 radio broadcast stations as Primary Entry Point (PEP) 
stations. At the request of the President, FEMA would distribute the 
``Presidential Level'' messages to these PEP stations. The PEP stations 
are monitored in turn by other stations in the hierarchical chain. 
Commission rules require broadcast stations and cable systems to 
monitor at least two of the EAS sources for Presidential alerts that 
are specified in their state EAS plans. Initiation of an EAS message, 
whether at the national, state, or local level, is accomplished via 
dedicated EAS equipment. The EAS equipment provides a method for 
automatic interruption of regular programming and is capable of 
providing warnings in the primary language that is used by the station 
or cable system.
    Along with its primary role as a national public warning system, 
EAS--and other emergency notification mechanisms--are part of an 
overall public alert and warning system, over which FEMA exercises 
jurisdiction. EAS use, as part of such a public warning system at the 
state and local levels, while encouraged, is voluntary. Nevertheless, 
the public receives most of its alert and warning information through 
the broadcasters' and cable systems' voluntary activations of the EAS 
system on behalf of state and local emergency managers.
Current Issues and the Commission's Rulemaking Proceeding
    As noted above, the public relies heavily on EAS for emergency 
information. EAS therefore serves a critical purpose, but it currently 
only applies to analog radio and television stations, and wired and 
wireless cable television systems. In August 2004, the Commission began 
a rulemaking proceeding to review whether we need to either update EAS 
or replace it with a more comprehensive and effective warning system.
    In initiating its rulemaking, the Commission encouraged commenters 
to consider recommendations from two public/private partnerships that 
have studied EAS issues extensively: the Media Security and Reliability 
Council (MSRC), an industry-led Federal Advisory Committee comprised of 
representatives from the radio, television, multi-channel video, public 
safety, and disabilities communities, and the Partnership for Public 
Warning (PPW), a not-for-profit, public/private partnership that was 
incorporated with the goal of promoting and enhancing effective, 
integrated dissemination of public warnings.
    The Commission has received comments from numerous interested 
individuals, Federal entities, state and local emergency planning 
organizations, and various sectors of the telecommunications 
industries. We have coordinated with DHS and its component, FEMA, and 
with the Department of Commerce and its component, the National Oceanic 
and Atmospheric Administration's (NOAA) National Weather Service, and 
we will continue to do so.
    The overarching question addressed in the proceeding is whether EAS 
in its present form is the most effective mechanism for warning the 
American public of an emergency, and, if not, how EAS can be improved. 
Most of the parties who commented agree that our warning system should 
be improved. Most--including MSRC and PPW--also advocate upgrading, 
rather than replacing EAS, to take advantage of the existing EAS 
infrastructure.
    The Commission's rulemaking proceeding addresses a number of 
specific and timely issues. For instance, the Commission noted that 
some parties argue that the purely voluntary nature of EAS at the state 
and local level results in an inconsistent application of EAS as an 
effective component of an overall public alert and warning system. To 
address these arguments, the Commission is examining whether permissive 
state and local EAS participation remains appropriate today, and 
whether uniform national guidelines should apply to state and local EAS 
implementation. Some parties who commented on this issue support 
continuing voluntary participation, at least for the present, while the 
Commission considers broader changes to EAS. Some parties also stated 
that participation, though voluntary, is widespread. These parties 
generally support continuing the voluntary nature of EAS.
    The Commission's Notice of Proposed Rulemaking (NPRM) initiating 
the open proceeding focused on the fact that EAS is currently mandated 
only for analog television and radio, and for cable systems, which 
represent an increasingly smaller part of our information sources. The 
Commission is considering whether and how EAS obligations should be 
extended to services not currently covered--e.g., digital television 
and radio, and satellite radio and television. Many commenters support 
the Commission's efforts to extend the EAS rules to digital 
broadcasters.
    The NPRM also asked questions about whether the technical 
capabilities of EAS can or should be applied to other communications 
platforms. Along with digital broadcast, new digital wireless 
technologies, including cellular telephony and personal digital 
assistants, are rapidly redefining the communications landscape, making 
available to the public warning technologies that are far more flexible 
and effective than the analog broadcast mechanism currently employed by 
EAS. The Commission is considering whether there should be an effort to 
use such technologies to form a comprehensive national public warning 
system capable of reaching virtually everyone all the time by combining 
EAS with alternative public alert and warning systems. We received a 
number of comments about methods, such as cell phone broadcasting, that 
could expand the reach of our warning systems in the future. In their 
comments, DHS and FEMA also noted that they are investigating new 
technologies for this purpose.
    The Commission also is examining security and reliability issues 
relevant to EAS and on the important question of how best to supply an 
effective public warning system to the disabled community and non-
English speakers. The Commission is also considering the role of 
various Federal Government departments and agencies, as well as local 
authorities, in implementing EAS.
    In addition, the Commission is involved in other initiatives, 
beyond its rulemaking proceeding, to address the effectiveness of our 
Nation's warning systems. For instance, the Commission is participating 
in the Task Force on Effective Warnings Materials, a group of Federal 
departments and agencies that has been assembled to examine existing 
and planned disaster warning and communications systems, and to make 
recommendations to ensure that these systems are effective. We will 
continue to share our expertise and views, and to seek the expertise 
and views of others, on these important issues.
Conclusion
    The Commission looks forward to working with Congress, our 
colleagues at other Federal, State, and tribal agencies, and the public 
to ensure that we can provide an effective and technologically advanced 
warning system to our citizens. The Commission also is aware that the 
Congress is taking an active interest in the issue of public alert and 
warning, and stands ready to provide whatever technical assistance that 
the Congress would find helpful in this regard.

    The Chairman. Thank you very much.
    Dr. Boyd, we had you next. You're part of Homeland 
Security, also, aren't you?
    Dr. Boyd. Yes, sir, I am.
    The Chairman. Well, will you proceed, please?

          STATEMENT OF DAVID G. BOYD, Ph.D., DIRECTOR,

         OFFICE FOR INTEROPERABILITY AND COMPATIBILITY,

                DEPARTMENT OF HOMELAND SECURITY

    Dr. Boyd. Good morning, and thank you, Mr. Chairman and 
Members of the Committee, for the invitation to speak to you 
today.
    Interoperability requires, before all else, simple 
operability. As Hurricane Katrina demonstrated, in the absence 
of a reliable network across which responders within an agency 
can effectively communicate, interoperability is both 
irrelevant and impossible. Some seem to believe the 
introduction of new technologies alone can solve our 
interoperability problems. But adding equipment addresses only 
part of what a fully robust, reliable, and interoperable public 
safety communications system requires.
    For example, when we lose towers, first responders have 
only their mobile or portable units available, so range is 
dramatically reduced, and control of the incident is severely 
compromised. Portable units permit some short-range 
communications, provided it's been planned and trained for, 
until the proprietary battery packs begin to fail and cannot be 
charged because the chargers are typically attached to the 
power grid. 9-1-1 centers are tied to the wired telephone 
networks, and so is the cellular system, which depends on cell 
phones that also use proprietary batteries. No single fix alone 
can address all these elements, and, more importantly, the 
planning and organizational elements.
    Many solutions have been offered, and many claims have been 
made for each solution. But none is a silver bullet. Satellite 
phones are extremely useful for command elements, but often 
hopelessly impractical for individual first responders. They 
require training and signals can be blocked by vegetation, 
buildings, terrain, and even weather. They also use batteries 
that need recharging. And a first responder in the middle of a 
rescue or up to his armpits in water will find the antenna 
hard, or impossible, to aim.
    Van or trailer-mounted communications systems dropped into 
the incident nearly always offer significantly less coverage 
than the original system, and may require significant training 
to use.
    And all of these, without solid prior planning, will add to 
the difficulties of achieving interoperability once operability 
is achieved.
    We believe what we've developed to support interoperability 
can also help first responders successfully navigate any 
communications emergency. We, in the public safety community, 
have identified six key building blocks required to achieve 
interoperability: governance, standard operating procedures, 
technology, training and exercises, routine use of 
interoperable systems, and crosscutting all of these is the 
sixth, and probably most important element, a high degree of 
leadership, planning, and collaboration, with a commitment to 
an investment in sustainability.
    To help public safety agencies, and especially the policy 
levels of government, understand the interrelationship of all 
of these factors, we developed a tool called the 
``interoperability continuum.'' This planning tool explains how 
all these elements relate to each other, and makes clear all of 
these elements need to be addressed before, not during, an 
emergency.
    Interoperability is not a new issue. It was a problem in 
Washington, D.C., when the Air Florida flight crashed into the 
Potomac in 1982; in New York City, when the Twin Towers were 
first attacked in 1993; in 1995 when the Murrah Building was 
destroyed in Oklahoma City; and in 1999, at Columbine. Too many 
public safety personnel cannot communicate by radio because 
their equipment is still incompatible or the frequencies 
they're assigned are different. They operate on ten different 
frequency bands, among communications systems that are often 
proprietary and too often 30 or more years old. Over 90 percent 
of the Nation's public safety wireless infrastructure is 
financed, owned, operated, and maintained by the more than 
60,000 individual local jurisdictions--police, fire, and 
emergency medical services--that serve the public.
    National efforts to fix the problem have historically been 
erratic, uncertain, and, until recently, uncoordinated. Worse, 
the efforts have too often been designed without the direct 
involvement of the people with the greatest stake in effective 
communications, the first responders themselves. The attacks on 
September 11, 2001, made clear this had to change.
    Since September 11, significant progress has been made in 
interoperability, thanks to the priorities both the 
Administration and Congress have placed on it. In 2001, SAFECOM 
was established as a Presidential Management Initiative. In 
2004, the Department established the Office for 
Interoperability and Compatibility to further strengthen and 
integrate interoperability and compatibility efforts. And in 
the Intelligence Reform Act, Congress gave it a legislative 
charter.
    While fixing the Nation's interoperability problems will 
require a sustained effort, we recognize that we cannot wait to 
move things forward. That's why SAFECOM has initiated a number 
of near-term initiatives, including working with the National 
Institute of Standards and Technology to accelerate the 
development of standards, the interoperability continuum, and 
statewide planning tools: RapidCom, the program ably led by 
Dereck Orr of the NIST Office of Law Enforcement Standards 
while he was attached to my office, a public safety 
architectural framework, creation of a P-25 performance testing 
program, development of coordinated grant guidance across all 
Federal grant programs, creation of a national baseline, and 
identification of public safety spectrum needs. Mr. Orr will 
provide more detail on some of these.
    This Nation is heavily invested in an existing 
infrastructure that is too often inadequate to the basic 
communications requirements of individual agencies and not 
interoperable.
    We must continue to pursue a comprehensive strategy that 
takes into account technical and cultural issues associated 
with improving interoperability, which recognizes the 
challenges associated with incorporating legacy systems and 
practices in constantly changing technology and cultural 
environments and which encourages strong local leadership in 
ensuring that the needs of the frontline of emergency 
responders, the first responders, are met.
    Though many challenges remain, we believe we've 
accomplished a great deal in the short time DHS has managed the 
program, but we believe a lot remains to be done.
    [The prepared statement of Dr. Boyd follows:]

   Prepared Statement of David G. Boyd, Ph.D., Director, Office for 
  Interoperability and Compatibility, Department of Homeland Security
Introduction
    Good morning and thank you, Mr. Chairman and Members of the 
Committee, for the invitation to speak to you today.
    Today's testimony will focus on SAFECOM, a communications program 
of the Office of Interoperability and Compatibility (OIC), which 
resides in the Office of Systems Engineering and Development, Science 
and Technology Directorate, Department of Homeland Security (DHS). 
SAFECOM provides development, testing, evaluation, guidance, research 
and assistance for local, tribal, state, and Federal public safety 
agencies working to improve public safety response through more 
effective and efficient interoperable wireless communications. (By 
public safety we mean fire, police, emergency medical services, 
emergency managers, and others who have emergency response missions). 
Although SAFECOM is working with practitioners to develop long-term 
strategic initiatives, without which the Nation will never solve the 
interoperability problem, we all know terrorists, natural disasters and 
other emergencies will not wait for a comprehensive national solution 
so the program has been designed with near-, mid- and long-term goals.
    Communications interoperability refers to the ability of public 
safety agencies to talk across disciplines and jurisdictions via radio 
communications systems, exchanging voice and/or data with one another 
on demand, in real time, as authorized. Unfortunately, the Nation is 
heavily invested in an existing infrastructure made up largely of 
systems that are too often incompatible. To change this, efforts within 
the Federal Government to address the interoperability problem are 
being coordinated by SAFECOM and incorporate the needs of local, state, 
and Federal practitioners. But there are no immediate, silver bullet 
fixes to the financial, technical and cultural challenges that face us. 
As the Government Accountability Office (GAO) acknowledged in a July 
2004 report, communications interoperability is a long-term problem 
with no one-size-fits-all solution.
Public Safety Communications Environment
    Interoperability is not a new issue; it has plagued the public 
safety community for decades. It was a problem in Washington, D.C., 
when the Air Florida flight crashed into the Potomac in 1982. It was a 
problem in New York City when the Twin Towers were first attacked in 
1993. It was a problem in 1995 when the Murrah Building was destroyed 
in Oklahoma City, and in 1999 at Columbine. The reality is that today, 
too many public safety personnel cannot communicate by radio with 
personnel from other agencies or disciplines because their equipment is 
still incompatible, or the frequencies they are assigned are different. 
They operate on 10 different frequency bands and run communications 
systems that are often proprietary, and that are too often 30 or more 
years old, in an era when the technology lifecycle is only 18 to 24 
months. Over 90 percent of the Nation's public safety wireless 
infrastructure is financed, owned, operated, and maintained by the more 
than 60,000 local jurisdictions that provide emergency services to the 
public and only a very tiny fraction of this funding is Federal. 
National efforts to fix the problem have historically been erratic, 
uncertain, and until recently, uncoordinated. The attacks on September 
11, 2001, made clear this had to change.
    Since September 11, 2001, significant progress has been made to 
improve communications interoperability for the public safety 
community. Yet it is apparent that more must be achieved. Much of this 
progress can be attributed to the priority that both the Administration 
and Congress have placed on solving the problem of communications 
interoperability. In 2001, SAFECOM was established as a Presidential 
Management Initiative and charged with strengthening interoperability 
at all levels of government by coordinating Federal programs, 
initiating a comprehensive standards program, and developing a national 
architecture. In 2004, the Department established OIC to further 
strengthen and integrate interoperability and compatibility efforts to 
improve local, tribal, state, and Federal public safety preparedness 
and response. OIC was directed to:

  <bullet> Identify and certify all DHS programs that touch on 
        interoperability;

  <bullet> Support the creation of interoperability standards;

  <bullet> Establish a comprehensive research, development, testing, 
        and evaluation (RDT&E) program for improving public safety 
        interoperability;

  <bullet> Integrate coordinated grant guidance across all DHS grant 
        making agencies that touch on public safety interoperability;

  <bullet> Oversee the development and implementation of technical 
        assistance for public safety interoperability;

  <bullet> Conduct pilot demonstrations;

  <bullet> Create an interagency interoperability coordination council; 
        and

  <bullet> Establish an effective outreach program.

Long-Term Vision
    Practitioners helped SAFECOM articulate a long term vision for 
interoperability which projects that, not later than 2023, first 
responders will operate on a national system-of-systems using 
standards-based equipment that provides the capability to respond to an 
incident anywhere in the country, using their own equipment, on any 
network, and on dedicated public safety spectrum. They will be able to 
communicate with each other as authorized via voice, data, and video on 
demand and in real time. Making this vision flesh will require work in 
five critical success areas, including:

        1. A common set of guidelines and criteria for public safety 
        communications systems in conjunction with a national 
        architecture framework;

        2. Coordinated testing and evaluation processes to ensure 
        communications equipment meets critical requirements;

        3. Standardization of equipment fortified by interim grant 
        guidance measures;

        4. Coordinated spectrum policy that meets the needs of the 
        public safety community; and

        5. Certification of state communications plans.

    None of these initiatives will be accomplished overnight, but many 
of them are already beginning to strengthen interoperability in the 
public safety community.
Near-Term Initiatives
    While fixing the Nation's interoperability problem will require a 
sustained effort, we recognize that we must quickly ensure sufficient 
interoperability at all levels of government to meet emergencies of any 
kind. To do this, DHS and SAFECOM has initiated a number of near-term 
initiatives, including development of the Interoperability Continuum, 
development of statewide planning tools, execution of the RapidCom 
Initiative, publication of a national statement of requirements, 
creation of a conformance testing program, development of coordinated 
grant guidance for inclusion in every Federal grant program, creation 
of a national baseline, identification of public safety spectrum needs, 
development of emergency response plans for immediate communications 
capabilities, and coordination with Office of State and Local 
Government Coordination and Preparedness' (SLGCP) Interoperable 
Communications Technical Assistance Program (ICTAP).
Statement of Requirements and a National Architecture Framework
    Interoperability plans to support responses to an incident need to 
be developed based on a common set of guidelines and criteria for 
public safety communications systems and these should be aligned with a 
national architecture framework. Only when these guidelines are 
universally recognized and followed will first responders and the 
larger public safety community be able to communicate effectively. To 
that end, SAFECOM published Version 1.0 of the first ever comprehensive 
Public Safety Statement of Requirements for Communications and 
Interoperability (SoR). Developed with public safety practitioner 
input, the SoR defines the functional requirements for public safety 
communications. Subsequent versions will further refine these technical 
requirements so that industry will have a blueprint to which to build 
technologies that address public safety's needs. This SoR also serves 
as the basis for developing a national architecture framework for 
communications interoperability. SAFECOM is working to develop a Public 
Safety Architecture Framework (PSAF) that, with the SoR, will serve as 
a tool to help the Nation's first responder agencies understand the 
technical requirements and national migration path toward fully 
interoperable communications systems without imposing requirements that 
stifle innovation.
Coordinated Testing and Evaluation of Equipment
    The next step in achieving national communications interoperability 
is the development of coordinated testing and evaluation processes to 
ensure communications equipment meets the critical needs of first 
responders. Public safety is faced with many complex procurement 
decisions and frequently has to hope that the equipment they buy will 
do what it claims. To ensure that public safety is able to truly trust 
the claims made by vendors, communications equipment needs to be tested 
and evaluated based on first responder needs and capabilities. To do 
this, SAFECOM created a testing and evaluation working group to help 
ensure that methodologies for testing and evaluation of 
interoperability products are technically sound and comparable across 
testing laboratories. The working group members are practitioners and 
subject matter experts from law enforcement, fire services, and 
emergency medical services. These members help review and develop test 
criteria and serve the program by determining which products should be 
evaluated.
Standardization of Equipment Fortified by Interim Grant Guidance
    Standardization of equipment fortified by interim grant guidance 
measures is an essential step in achieving communications 
interoperability. The equipment must adhere to communications standards 
that allow for improved interoperability. As standards are created, 
funding solutions must also be implemented to help jurisdictions meet 
interoperability goals and requirements. To better coordinate the 
funding of interoperability solutions, such as purchasing new 
equipment, developing state plans, or other activities, we resolved a 
major hurdle in achieving interoperability: conflicting Federal grant 
guidance. In the past, Federal grant programs for public safety 
communications were not coordinated and too often resulted in the use 
of limited Federal resources to create systems that made 
interoperability even more difficult to achieve.
    Our coordinated grant guidance outlines eligibility for grants, the 
purposes for which grants can be used, and guidelines for implementing 
a wireless communications system in order to help maximize the 
efficiency with which public safety communications related grant 
dollars are allocated and spent. To ensure consistency in 
interoperability grant solicitations, this guidance has been included 
in grant programs administered by the Department of Justice and other 
agencies within DHS. Within DHS, the Office for State and Local 
Government Coordination and Preparedness (SLGCP) reports that it has 
provided more than $1.5 billion in direct funding to local 
jurisdictions, urban areas, and states. SLGCP has three primary grant 
programs that have incorporated SAFECOM's grant guidance on issues 
regarding communications interoperability. These programs are the State 
Homeland Security Grant Program, Urban Areas Security Initiative Grant 
Program, and the Law Enforcement Terrorism Prevention Grant Program. 
Many of the system procurements and enhancements supported by this 
funding are still being implemented. More thorough monitoring of these 
projects is required to ascertain whether they achieve their intended 
goals.
    It is important to note, however, that although SAFECOM has 
developed consensus guidance and tools to improve the grant making 
process, the program does not directly manage or provide funding to 
local or state agencies for communications projects. Grant guidance is 
an important step toward improving national interoperability because it 
helps to align public safety communications related grant dollars with 
the national effort to improve interoperability at all levels of 
government.
    OMB also requires all Federal agencies demonstrate their programs 
are fully aligned with SAFECOM guidance in developing their own 
communications plans.
National Baseline of Public Safety Communications
    The National Interoperability Baseline study will provide the 
Nation's first statistically significant, quantitative measurement of 
the current state of public safety communications interoperability. The 
development of the survey methodology was initiated in January 2005 and 
the resulting study will provide an understanding of the current state 
of interoperability nationwide upon completion. Additionally, it will 
serve as a tool to measure future improvements made through local, 
state, and Federal public safety communications initiatives.
    The survey instrument developed for Interoperability Baseline will 
allow SAFECOM to identify areas with interoperability shortfalls, track 
the impact of Federal programs and measure the success of these 
programs, establish an ongoing process and mechanism to measure the 
state of interoperability on a recurring basis, and develop an 
interoperability baseline self-assessment tool for local and state 
public safety agencies.
Coordinated Spectrum Policy That Meets the Needs of Public Safety
    Radio spectrum is a finite resource--there is only so much 
available and it is shared by public safety, radio broadcasters, 
government users, and other commercial and private consumers. The large 
demand for this resource can lead to overcrowding, which, in turn can 
cause delays in or disruption of communication for public safety. The 
Federal Communications Commission has allocated certain frequencies to 
public safety, but these allocations are fragmented, creating 
challenges for communications among different agencies and 
jurisdictions. In the Intelligence Reform and Terrorism Prevention Act 
of 2004, Congress required the Federal Communications Commission (FCC) 
in consultation with DHS and the National Telecommunications and 
Information Administration (NTIA) to conduct a study to assess the 
spectrum needs for local, state, and Federal first responders, which is 
due in December 2005. SAFECOM is currently assessing public safety 
spectrum needs in support of the President's national spectrum 
management initiative. DHS, in consultation with the Department of 
Commerce and other relevant agencies, is developing a Spectrum Needs 
Plan out of these assessments which will be delivered to the President 
by the end of November 2005.
Certification of State Communications Plans
    Interoperability requires, before all else, simple operability--
that is, communications within the local agency. As Hurricane Katrina 
demonstrated, in the absence of a reliable network across which 
responders within an agency can effectively communicate, 
interoperability is both irrelevant and impossible. Strengthening and 
ensuring basic level public safety communications capabilities, 
therefore, is the first task. But progressing from agency-specific 
operability towards multi-jurisdictional and multi-disciplinary 
interoperability requires attention to more than technology.
    Some believe the introduction of new technologies alone can solve 
our interoperability problems. But adding equipment addresses only one 
part of what a fully robust, reliable, and interoperable public safety 
communications system requires. With input from the public safety 
community, we have identified five key building blocks required to 
achieve interoperability. Governance, Standard Operating Procedures 
(SOP), Technology, Training and Exercises, routine use (Usage) of 
interoperable systems, and regular Maintenance must all be present for 
interoperability to be possible. To help public safety agencies and 
especially the policy levels of government understand the 
interrelationship of all of these factors, we developed a tool called 
the ``Interoperability Continuum.'' This planning tool explains how all 
these elements relate to each other. For example, if a city within a 
region procures new equipment it may have a technical interoperability 
capability, but unless it has also conducted exercises to test 
procedures (and find points of failure) and concepts of operation, and 
developed policies agreeable to the entire region, it is unlikely the 
new equipment can be effectively integrated into regional 
interoperability plans. As states develop their emergency 
communications plans, we recommend that they address all the elements 
of the Interoperability Continuum.
Statewide Planning Tools
    Statewide communications plans are often unsuccessful because the 
top-down approach fails to consider the requirements of the first 
responders who are the primary users and who control the most of the 
wireless infrastructure.
    In 2004, SAFECOM partnered with the Commonwealth of Virginia and 
the Department of Justice to develop a strategic plan for improving 
statewide interoperable communications for the state. The effort was 
based on SAFECOM's ``bottom-up,'' locally-driven approach. The planning 
process included six regional focus group sessions, which culminated in 
a final strategic planning session. The focus group sessions captured 
perspectives from numerous local public safety representatives 
throughout the Commonwealth; these perspectives were used in the final 
strategic planning session in which recommendations for key initiatives 
were developed as part of a statewide strategic plan for improving 
public safety communications and interoperability.
    Based on lessons learned from the Virginia planning process, 
SAFECOM published the Statewide Communications Interoperability 
Planning (SCIP) Methodology as a model for integrating practitioner 
input into a successful statewide strategic plan to every state. The 
SCIP Methodology serves as one approach for states to consider as they 
initiate statewide communications planning efforts.
    We are also implementing Section 7304 of the Intelligence Reform 
and Terrorism Prevention Act of 2004 (Public Law 108-458), which 
authorized the Secretary of Homeland Security to carry out at least two 
Regional Communications Interoperability Pilots (RCIP). In accordance 
with the Congressional criteria for determining the location of the 
pilot sites, as well as criteria outlined by the program itself, 
SAFECOM selected the State of Nevada and the Commonwealth of Kentucky 
as RCIP locations. SAFECOM, in coordination with the Office of State 
and Local Government Coordination and Preparedness' Interoperable 
Communications Technical Assistance Program (ICTAP), is helping both 
states implement the SCIP methodology.
    Building on lessons learned from the SCIP Methodology and earlier 
SAFECOM initiatives, the RCIP projects will help us identify models for 
improving communications and interoperability that take into account 
the wide range of challenges across the nation. When the projects are 
complete, Nevada and Kentucky will each have improved interoperability 
plans and we will be able to use the lessons learned to better develop 
or strengthen replicable tools and methodologies which will be made 
available to public safety practitioners, as well as to local and state 
governments. An interim report regarding the progress of the pilot 
projects has been submitted to Congress. A final report will be 
provided to Congress in June 2006.
    We believe statewide emergency communications plans are fundamental 
to an effective response to a catastrophic event. As states continue to 
develop their own plans, SAFECOM recommends that they do so in 
coordination with SAFECOM methodologies and guidance.
RapidCom
    On July 22, 2004, President Bush formally announced the RapidCom 
initiative, a program designed to ensure that a minimum level of public 
safety interoperability would be in place in ten high-threat urban 
areas by September 30, 2004.
    In coordination with the Office of State and Local Government 
Coordination and Preparedness (OSLGCP), the Department of Justice's 25 
Cities Program, and the DHS Wireless Management Office, SAFECOM worked 
closely with public safety leaders in ten high-risk urban areas 
centered in Boston, Chicago, Houston, Jersey City, Los Angeles, Miami, 
New York, Philadelphia, San Francisco, and the Washington Metropolitan 
Area to assess their communications interoperability capacity and 
needs, and to identify and implement solutions. In keeping with the 
SAFECOM ``bottom-up'' approach, local officials drove the design and 
implementation of solutions in their jurisdictions.
    With the on-time completion of the RapidCom project, incident 
commanders in each of the urban areas now have confirmed they have the 
ability to adequately communicate with each other and their respective 
command centers within one hour of an incident.
Interoperable Communications Technical Assistance Program (ICTAP)
    A key component in achieving interoperable communications across 
the Nation is providing on-site technical assistance to states and 
urban areas. SLGCP funds ICTAP, a technical assistance program designed 
to enhance interoperable communications between local, state, and 
Federal first responders and public safety officials. The program 
provides free support to states and urban areas with the goal of 
enabling local public safety officials to communicate across 
disciplines and jurisdictions via radio communications systems, 
exchanging voice and/or data with one another on demand, in real time, 
as authorized.
Conclusion
    These initiatives are only part of what the SAFECOM program has 
undertaken to advance communications interoperability across the 
Nation. This Nation is heavily invested in an existing infrastructure 
that is too often inadequate to the basic communications requirements 
of individual agencies and not interoperable. We must continue to 
pursue a comprehensive strategy that takes into account technical and 
cultural issues associated with improving interoperability, which 
recognizes the challenges associated with incorporating legacy 
equipment and practices in constantly changing technology and cultural 
environments, and which ensures that the needs of the frontline of 
emergency response--the first responders--are met. Though many 
challenges remain, we believe we have accomplished a great deal in the 
short time DHS has managed this program.
    We are confident that with your continuing support and the 
assistance of our many Federal partners, we will continue to move 
towards a world where lives and property are never lost because public 
safety agencies are unable to communicate or lack compatible equipment 
and training resources.
Appendix I: OIC Authorities From the Intelligence Reform and Terrorism 
                         Prevention Act of 2004
    Congress, with the passage of the Intelligence Reform and Terrorism 
Prevention Act of 2004 (Pub. L. 108-458) less than a year ago, gave OIC 
and SAFECOM legislative authority to carry out its responsibilities. 
Before passage of this Act, responsibility for addressing 
interoperability was spread across three different agencies. Section 
7303 of the Act directed SAFECOM to:

  <bullet> coordinate with other Federal agencies to establish a 
        comprehensive national approach to achieving public safety 
        interoperable communications;

  <bullet> develop, with Federal agencies and state and local 
        authorities, minimum capabilities for communications 
        interoperability for Federal, state, and local public safety 
        agencies;

  <bullet> accelerate voluntary consensus standards for public safety 
        interoperable communications;

  <bullet> develop and implement flexible open architectures for short- 
        and long-term solutions to public safety interoperable 
        communications;

  <bullet> identify priorities for research, development, and testing 
        and evaluation within DHS and assist other Federal agencies in 
        doing the same with regard to public safety interoperable 
        communications;

  <bullet> provide technical assistance to state and localities 
        regarding planning, acquisition strategies, and other functions 
        necessary to achieve public safety communications 
        interoperability;

  <bullet> develop and disseminate best practices to improve public 
        safety communications interoperability;

  <bullet> develop appropriate performance measures and milestones to 
        measure the Nation's progress to achieving public safety 
        communications interoperability;

  <bullet> provide technical guidance, training, and other assistance 
        to support the rapid establishment of consistent, secure, and 
        effective interoperable communications capabilities in the 
        event of an emergency in urban and other areas determined by 
        the Secretary to be at consistently high levels of risk from 
        terrorist attack; and

  <bullet> develop minimum interoperable communications capabilities 
        for emergency response providers.
     Appendix II: Tools and Methods Based on Local and State Pilots
    Communications Tabletop Exercise Methodology, a process for a 
communications-focused tabletop exercise replicable across urban areas.
    Tabletop Exercise After-Action Report, a template for capturing key 
findings and identifying gaps following each tabletop exercise.
    Interoperability Pocket Guide, a process for creating an area-
specific interoperability pocket guide to ensure local public safety 
officials are aware of current capabilities available in their areas.
    Templates for Improving Interoperability, including governance 
charter, standard operating procedure (SOP), and memorandum of 
agreement (MOA) templates to help communities improve interoperability.
    Operational Guide for the Interoperability Continuum--Lessons 
Learned from RapidCom, which outlines the importance of each element of 
the Interoperability Continuum, provides common challenges to consider 
when working towards improved interoperability, and recommends key 
actions to increase an area's capabilities.

    The Chairman. Thank you very much.
    Chief Carter, Association of Public-Safety Communications 
Officials International, and Chief of Communications, 
Shreveport, Louisiana, Fire Department. Thank you for coming.

       STATEMENT OF WILLIS CARTER, FIRST VICE PRESIDENT,

          ASSOCIATION OF PUBLIC-SAFETY COMMUNICATIONS

           OFFICIALS, INTERNATIONAL (APCO); CHIEF OF

           COMMUNICATIONS, SHREVEPORT FIRE DEPARTMENT

    Mr. Carter. Thank you, Chairman Stevens and Members of the 
Committee, for the opportunity to appear before you here today.
    My name is Willis Carter. I'm the First Vice President of 
APCO, the Association of Public-Safety Communications 
Officials. I'm also Chief of Communications for the Shreveport, 
Louisiana, Fire Department. In addition to appearing on behalf 
of APCO, I note that the following national organizations have 
indicated their support for my testimony here today: The 
International Association of Chiefs of Police, the 
International Association of Fire Chiefs, the National 
Association of Counties, the National Leagues of Cities, and 
the Congressional Fire Services Institute.
    We are very pleased that Congress is considering how it can 
promote public safety communications. Recent events have 
demonstrated the importance of incident command and control, 
which obviously requires effective and efficient 
communications. We want to emphasize that communications 
solutions need to focus not only on major disasters, such as 
Katrina and 9/11, but also on the day-to-day communications 
requirements of public safety agencies. We must also work to 
identify the real problems and develop carefully planned 
approaches to solve those problems. This is no time to throw 
money at ill-conceived Band-Aid solutions. We also caution that 
solutions not be thrust upon state and local governments 
without consideration of cost.
    There are three broad areas where assistance is needed. 
First, planning, coordination, and training. Second, sufficient 
radio spectrum for robust interoperable radio communications. 
And third, funding to help state and local government agencies 
acquire the skills and the equipment they need to provide the 
best-possible communications capability.
    My hometown of Shreveport, which is in northwest Louisiana, 
escaped the wrath of Katrina. However, this past weekend, we 
did have serious wind damage and extensive power outages, 
thanks to Hurricane Rita. Throughout both hurricanes, our 
communications system, which has interoperability with some 50 
agencies, worked extremely well. Of course, other areas in the 
Gulf Coast region saw much more devastation and experienced 
more serious communications problems.
    Shortly after Hurricane Katrina, I had the opportunity to 
go on a fact-finding mission to many of the affected areas. And 
this is more fully described in my written statement. I saw 
devastation and despair in every direction. I also saw the same 
basic problems in all areas: lack of coordinated incident 
command, lack of direct support for communications centers and 
their personnel, and the inability to communicate.
    The damage caused by Hurricane Katrina either destroyed or 
seriously damaged many public safety communications facilities. 
Typically, public safety systems are designed to withstand the 
worst that nature or man can offer. And it's very unusual for 
public safety systems to fail, even after commercial systems go 
down. Katrina was a real exception to that. Nevertheless, 
Katrina is a warning that public safety systems need to take 
all reasonable steps to ensure survivability.
    A lack of interoperability was a major problem both during 
and following Katrina. However, the breakdown of basic 
operability was also a serious concern. First responders could 
not communicate, in many cases, with their own agencies, let 
alone personnel from other jurisdictions.
    Maintaining operability and achieving interoperability are 
complex tasks, with no single answer for all public safety 
agencies or regions. Possible solutions to this problem can 
include better training--better planning and training, 
compatible radio equipment, patches to tie radio networks 
together, radio systems that operate in the same radio 
frequency band, more spectrum for interoperability channels, 
and, in some cases, all of the above.
    One of the most important steps that Congress can take is 
to establish an early and firm date for the clearing of TV 
stations from the 700 MHz band. That, in turn, will free up 
spectrum which was allocated for public safety use back in 
1998.
    My written statement spells out some of the benefits of 
this spectrum. However, to summarize, the spectrum will help to 
alleviate serious congestion on many existing public safety 
radio systems. It will provide capacity for new communications 
tools. And it will promote enhanced interoperability, both on a 
daily basis and during major emergencies.
    Congress can also assist by providing funding to support 
training, planning, and coordination. Funding is also needed to 
enhance communications system survivability, and help state and 
local governments acquire new equipment for robust 
interoperable communications systems.
    Mr. Chairman, just as September 11, 2001 helped us to focus 
the Nation on the communications issues facing our first 
responders, Hurricane Katrina has revealed that much still 
needs to be accomplished in order to provide the public safety 
personnel with the tools that they need to protect the safety 
of life and property. We look forward to working with the 
Congress and other parties toward this crucial effort.
    Thank you, once again, for the opportunity to appear before 
you today.
    [The prepared statement of Mr. Carter follows:]

Prepared Statement of Willis Carter, First Vice President, Association 
of Public-Safety Communications Officials, International (APCO); Chief 
             of Communications, Shreveport Fire Department
    Thank you Chairman Stevens, Co-Chairman Inouye, and Members of the 
Committee for the opportunity to appear before you today, and for your 
long-standing interest in the communications issues facing our Nation's 
first responders.
    My name is Willis Carter and I am the First Vice President of APCO 
International, the Association of Public-Safety Communications 
Officials. I am also Chief of Communications for the Shreveport, 
Louisiana Fire Department. I have served a total of 34 years with the 
Department, the last 20 of which have been in my current position. In 
addition to appearing on behalf of APCO International, I note that the 
following national organizations have indicated their support for my 
testimony here today and have requested that their support be noted in 
the record: International Association of Chiefs of Police, 
International Association of Fire Chiefs, National Association of 
Counties, National Leagues of Cities, and the Congressional Fire 
Services Institute.
    APCO International is the Nation's oldest and largest public safety 
communications organization, with over 14,000 individual members who 
manage and operate communications systems and facilities for police, 
fire, emergency medical and other state and local government public 
safety agencies.
    APCO International has been very active in helping to respond to 
Hurricane Katrina and its aftermath. We have been working closely with 
the public safety agencies in the affected areas, first, to provide 
whatever assistance we can to the individuals and agencies involved, 
and second, to gather information so that we may learn from this 
disaster and be better prepared in the future. Through a variety of 
mechanisms, our members from across the Nation have also been coming to 
the aid of their colleagues in the hardest hit areas, providing both 
professional and personal assistance whenever possible.
    Through its role as a FCC-certified frequency coordinator, APCO 
International has helped to secure radio communications frequencies for 
emergency response agencies in the affected areas, and to assist 
agencies that must repair or replace damaged facilities. I note that 
APCO International has done so while waiving its normal frequency 
coordination fees.
    Fortunately, my hometown of Shreveport, which is in northwest 
Louisiana, escaped the wrath of Katrina. We were not so lucky with 
Hurricane Rita, which did cause some damage and significant power 
outages in the Shreveport area. I am pleased to report that our public 
safety communications system in Shreveport worked very well after both 
of the recent hurricanes. However, as we all know, there were serious 
communications problems in many of the areas that were more directly 
affected by Hurricane Katrina.
    Shortly after Katrina struck, I had the opportunity to go on a 
fact-finding mission to many of the affected areas. I have also had 
extensive communication with my colleagues from other public safety 
agencies throughout Louisiana. My statement today will summarize some 
of my observations, offer other information that APCO International has 
gathered, and present some general concerns that APCO International has 
as we move forward to improve public safety communications 
capabilities. I want to emphasize that our solutions need to focus not 
just on major disasters, such as Hurricane Katrina and 9/11, but also 
on the day-to-day communications requirements of public safety 
agencies. We must also work to identify the real problems and develop 
carefully planned approaches to solve those problems. This is no time 
to throw money at ill-conceived ``band-aid'' solutions. I also caution 
that solutions not be thrust upon state and local governments without 
consideration of cost.
    On Monday September 5, I traveled to St. Tammany Parish, which is 
located on the north side of Lake Pontchartrain. There I toured seven 
dispatch centers. The devastation that I witnessed was unimaginable. 
Public safety call takers and dispatchers operating at Public Safety 
Answering Points, or PSAPs, were working and living in their 
communications centers. Some had lost their homes, and most had 
suffered significant damage, but all were on the job and still 
attempting to provide help and assistance to the thousands of citizens 
in need. Communications capabilities were at best very limited. The 
primary tower site which supports the City of Slidell radio system had 
been damaged, but was still affording limited service. The entire area 
of Slidell, Louisiana was without power and relying on emergency backup 
power sources. The Covington area had some power restored. 9-1-1 was 
totally out of service.
    I departed St. Tammany Parish on Tuesday, and traveled to St. 
Charles Parish, which is adjacent to Jefferson Parish and on the west 
side of New Orleans proper. This area did not endure the direct blunt 
of the storm, and although sustaining somewhat less damage than what I 
had seen the day before, they were nonetheless facing significant 
challenges with limited radio communications, and a total outage of 9-
1-1. I was to find that the worst was yet to come. The Jefferson Parish 
Communications Center was in much more dire circumstances. 
Communication to field units was very limited, access to 9-1-1 was 
completely out, and the call takers and dispatchers were experiencing 
the impact of the stress of working, sleeping, and eating in their 
dispatch center since the storm hit five days earlier. The Fire 
Dispatch Commander told me that he had lost five dispatch personnel 
since the storm due to the fact that the stress associated with this 
tragic event had prompted them to simply walk out. My attempts to reach 
the New Orleans Police dispatch center and the New Orleans Fire 
dispatch center were unsuccessful. Flooding prevented access to either 
of these centers which had both been evacuated. There was no 9-1-1 
service, and the majority of public safety radio communications were 
not functioning.
    As has been reported elsewhere, a major communications problem 
occurred when the New Orleans 800 MHz radio system went down, and 
repairs were delayed for several days. My understanding is that the 
system would normally have provided a mutual aid backbone for 
surrounding jurisdictions and linkage to the Louisiana state radio 
system (which also suffered some damage in the area). Aside from the 
impact of the New Orleans radio system, the relief efforts were plagued 
in many areas by a lack of interoperability between radio equipment 
used by various first responders.
    My department in Shreveport operates on an 800 MHz system that 
services all police, fire, EMS and other agencies in Caddo Parish, and 
provides good interoperability on a daily basis within the region. 
However, when members of my department were detailed to the New Orleans 
area, they were unable to operate our radios on the Louisiana State 800 
MHz network due to software incompatibility. This problem can be fixed, 
for about $800 per radio, but requires funding from State or Federal 
sources.
    Another problem that I was told about involved a local agency in 
the New Orleans area that actually disconnected equipment designed to 
patch its system with another in the area, as they were fearful of 
system overloads.
    In all, I visited four parishes and had the opportunity to visit a 
total of nine communications centers. I saw devastation and despair in 
every direction, and I also saw the same basic problems in all areas. 
Lack of coordinated incident command and control, lack of direct 
support for communications centers and their personnel, and the 
inability to communicate were obvious problems in every area that I 
visited.
    There were several factors that contributed to the public safety 
communications outages in all of these areas. The damage caused by the 
hurricane winds either destroyed or seriously damaged many primary 
tower and transmitter sites. The ensuing power outage which engulfed 
the area required the use of emergency power generators, many of which 
had been damaged or destroyed by flying debris and rising water. Many 
of those that remained in operation were faced with exhausted fuel 
supply either by disruption of natural gas supply lines, or the fact 
that there was no way to get diesel fuel into them as the result of 
flooding. Some communications sites were simply swallowed up by the 
floodwaters. Bell South central offices, which served as 9-1-1 tandems, 
were flooded, which created outages of 9-1-1 service in as many as 13 
parishes.
    My experiences in the affected areas reflect just some of the 
communications problems that became evident in the wake of Katrina. 
Based upon what we know of those problems, and of our knowledge of 
emergency communications needs in general, we would like to offer the 
following recommendations:

  <bullet> Significant improvements in local, regional, and national 
        interoperability are essential.

    As noted above, interoperability was a major issue in the response 
to Katrina, just as it was in responses to other major emergencies, and 
as it is a on a daily basis across the Nation. Note, however, that for 
Katrina, interoperability problems were masked to some degree by the 
larger and in many ways more serious breakdown of ``operability'' that 
occurred due to the destruction of facilities or power outages. First 
responders could not communicate in many cases within their own 
agencies, let alone with personnel from other jurisdictions.
    It is also important to understand that achieving interoperability 
is complex, without simple solutions. Sometimes the need is for better 
planning and training; sometimes the need is for compatible radio 
equipment; sometimes the need is for ``patches'' to tie together radio 
networks; sometimes the need is for radio systems to operate in the 
same radio frequency band; sometimes the need is for more spectrum for 
interoperability channels; and sometimes it is all of the above.
    There also needs to be a recognition that there are different types 
of interoperability: for day-to-day local and ``regional'' incidents 
that require multi-agency responses, and for major emergencies (such as 
Katrina) where emergency responders may be from far and wide. The 
specific solutions vary, and must be carefully planned and tailored to 
each situation. As discussed below, one key element of the ``solution'' 
is the nationwide clearing of the 700 MHz band.
    In his testimony last week, FCC Chairman Martin mentioned the 
potential for ``smart'' radios that can operate on different frequency 
bands. We agree that such technology should be encouraged as part of 
the long-term solution for interoperability. However, we caution that 
such technology, at least for portable units, is still in development, 
and probably a long way from being available at affordable costs. For 
the foreseeable future, we need interoperability solutions that take 
into consideration the enormous imbedded base of public safety 
equipment, currently available technologies, and the limited budgets of 
state and local governments.
    Finally, on the interoperability issue, I want to note our strong 
support for the DHS SAFECOM Program. SAFECOM is doing very important 
and useful work to address interoperability, and it deserves the 
continued support of Congress. Importantly, SAFECOM has incorporated 
state and local government organizations and public safety 
practitioners into the process, rather than relying on a top-down 
approach that ignores the real-life needs and concerns of first 
responders.

  <bullet> Planning and training for disasters are essential, and plans 
        need to be properly executed when disasters strike.

    Katrina and its aftermath showed us once again that disaster 
response efforts, including communications capabilities, must be 
planned well in advance. Equally important, relevant personnel need to 
be trained and prepared to implement disaster plans. Funding needs to 
be made available specifically for such planning and training.

  <bullet> There must be common incident command structures at all 
        levels of the emergency response effort.

    I saw firsthand the widely-reported breakdowns in emergency 
response command structures. Tragically, far too many personnel who 
were ready and equipped to lend assistance were left without adequate 
direction, communication, or information.

  <bullet> Funding must be available to ensure that public safety 
        communications networks are built and maintained to withstand 
        worse-case scenarios. Plans and funds must also be in place to 
        restore facilities that, despite best efforts, are disrupted.

    Typically, public safety systems are designed to withstand the 
worst that nature or man can offer, and it is very unusual for public 
safety systems to fail, even after commercial communications networks 
go down. Katrina was a rare exception. At present, we do not know the 
degree to which the system outages caused by Katrina could have been 
avoided. Nevertheless, Katrina is a warning that public safety systems 
need to take all reasonable steps to ensure survivability. That will 
require funding and other assistance from Federal, State, and local 
governments.
    Last week's hearing also included discussion of using satellite 
technology in emergency relief efforts when existing networks fail. We 
agree that satellites can and should be part of the solution, 
especially as alternative means of interconnecting to the national 
telephone network. However, we do not see satellite service as a 
replacement for terrestrial mobile radio networks. Satellite phones are 
limited by power issues and, more importantly, generally do not work 
inside of buildings.

  <bullet> There must be a ``hard date'' for nationwide public safety 
        access to the 700 MHz band, which is now blocked in many areas 
        by analog television stations.

    An early ``hard date,'' as close to the end of 2006 as possible, is 
essential for public safety agencies to be able to plan for and fund 
new radio systems using the 700 MHz band. Portions of that spectrum 
were allocated for public safety in 1998, but remain blocked by 
incumbent television stations. Mr. Chairman, this committee has already 
spent considerable time on this issue and the related transition to 
digital television. However, I would like to take this opportunity to 
emphasize briefly why this spectrum is so important for public safety.
    The public safety spectrum in the 700 MHz band would help to 
alleviate serious congestion on many existing public safety radio 
systems, especially in major metropolitan areas. Many current public 
safety systems operate with too few channels and insufficient capacity. 
That congestion can endanger the lives of first responders and the 
public, and it prevents deployment of new communications tools.
    The 700 MHz band will also facilitate interoperability, both on a 
daily basis and for major emergencies. The band is adjacent to the 
existing 800 MHz public safety band, and will allow for relatively easy 
interoperability between the two bands (700/800 MHz equipment is 
already available in the marketplace). The new public safety spectrum 
will also allow for new and expanded multi-agency, multi-jurisdictional 
radio systems, which is perhaps the best long-term solution for 
interoperability. Finally, the FCC rules set aside 2.6 MHz of spectrum 
within the 700 MHz band for dedicated national interoperability 
channels, with a requirement that all 700 MHz radio equipment be 
programmed to operate on these channels pursuant to a digital 
interoperability standard.
    Once the Congress fixes a hard date, agencies will be able to move 
forward to plan, fund and construct radio systems in the 700 MHz band. 
The FCC has already established rules for the new spectrum, state 
governments have already received state-wide licenses, some equipment 
is already available (and other equipment will be, once manufacturers 
have the certainty needed to justify R&D), and regional planning is 
well underway. For some existing 800 MHz systems, the 700 MHz channels 
will also provide opportunities for rapid expansion without the need to 
build new systems.
    As a footnote, Louisiana is exploring whether 700 MHz channels and 
equipment could be a key element of a new radio system for the area. 
Fortunately, the 700 MHz public safety channels are not blocked by TV 
stations in Louisiana. The same cannot be said for most metropolitan 
areas of the country.

  <bullet> There is a need for additional 700 MHz band spectrum for 
        mobile broadband operations to provide high speed video and 
        data to and among public safety personnel and agencies in the 
        field.

    Last year, Congress instructed DHS and the FCC to study this issue, 
and a report is due in December.

  <bullet> Additional funding is needed to assist public safety 
        agencies in their acquisition of state-of-the-art interoperable 
        communications equipment.

    Many agencies need assistance to implement both short-term and 
long-term interoperable solutions. One small example is the software 
upgrades needed for my department's radios to operate on the state-wide 
radio network. Funding should also include training and staffing.

  <bullet> PSAPs and other emergency communications centers must be 
        considered as core elements of the first response structure, 
        and the staff of those facilities needs the support of all 
        levels of government.

    Much attention has properly been focused on the brave first 
responders on the streets of the affected areas, who have worked hard 
to save lives and address the turmoil and destruction created by 
Hurricane Katrina. Unfortunately, not enough attention has been placed 
on the equally brave and committed personnel who receive 9-1-1 calls, 
dispatch emergency personnel, and manage communications centers under 
enormous pressures. They too need our support.

  <bullet> Telephone central offices supporting 9-1-1 tandems must be 
        ``mirrored'' in locations sufficiently remote to allow for 
        quick restoration of 9-1-1 services.

    As I noted above, as many as thirteen PSAPs may have been disrupted 
largely because the relevant Bell South central stations were flooded.

  <bullet> Congress should provide funds to assist PSAPs in their 
        upgrades for wireless E9-1-1 and other technologies.

    We urge Congress to go beyond merely funding a program office. 
Significant and meaningful grant funds should also be made available. 
We also note that suggestions that PSAPs move towards IP-based 
technologies often ignore the huge cost that would be imposed upon 
cash-strapped state and local governments.
    Mr. Chairman, just as September 11, 2001, helped to focus the 
Nation on the communications issues facing our first responders, 
Hurricane Katrina has revealed that much still needs to be accomplished 
to provide public safety personnel with the communications tools they 
need to protect the safety of life and property. We look forward to 
working with the Congress, the FCC, and other parties in this critical 
effort.
    Thank you once again for the opportunity to appear before you 
today.

    The Chairman. Thank you very much, Chief.
    Our next witness is Dereck Orr, Project Manager of the 
Public Safety Communications, National Institute of Standards 
and Technology.
    Mr. Orr?

    STATEMENT OF DERECK ORR, PROGRAM MANAGER, PUBLIC SAFETY 
  COMMUNICATIONS SYSTEMS, NATIONAL INSTITUTE OF STANDARDS AND 
                       TECHNOLOGY (NIST)

    Mr. Orr. Thank you, Mr. Chairman.
    I was fortunate to have had the great privilege to serve 
the Senate as a professional staff member of the Appropriations 
Committee under Senator Fritz Hollings. I am, therefore, 
sincerely honored to again be able to be here this morning with 
you and the esteemed members of this committee.
    NIST's Public Safety Communications Program serves as the 
technical lead for several of the Administration's initiatives 
focusing on communications, most importantly, the SAFECOM 
program led by Dr. Boyd. Although NIST is helping to improve 
public safety communications through a number of efforts, many 
of which Dr. Boyd spoke of, I will focus the remainder of my 
remarks this morning on the state of standards for public 
safety communications systems.
    Interoperability for public safety communications is 
defined as the ability to share information via voice, data, 
on-demand, in real time, when needed, and as authorized. The 
public safety community expects that this level of 
interoperability will be available using equipment from 
multiple manufacturers, be transparent to the user, require 
little or no special knowledge of the system, and not be 
dependent on common frequency assignments. Obviously, this is 
not what we have today. And, achieving this definition of 
interoperability in the future will not be possible without the 
existence of standards.
    Of course, public safety radio users have recognized this 
for some time. Approximately 15 years ago, representatives from 
local, State, and Federal public safety associations and 
agencies joined together to address the absence of available 
standards. They did this for two primary purposes. First, was 
to ensure that interoperability could be achieved assuming the 
use of equipment from multiple manufacturers. Second, through 
standards, the public safety community wanted to be able to 
take advantage of cost reductions associated with the more 
competitive land mobile radio market.
    The public safety community partnered with the 
Telecommunications Industry Association (TIA) to serve as the 
standards development organization for this effort. Thus, 
Project 25, or P-25, as we know it today, was launched.
    A commonly misunderstood aspect of P-25 is that it is 
comprised of a single standard. Instead, it is a suite of 
standards that specify the eight interfaces between the various 
components of a land mobile radio system.
    Over the last 15 years, only one of the P-25 interfaces, 
the Common Air Interface that deals with the functions of the 
handheld units, has been advanced to a level where it would 
help satisfy the goals of P-25. But, it alone, cannot provide 
the level of interoperability public safety is calling for. The 
remainder of the interfaces either remain undefined or lack 
enough specificity to allow for a common implementation of the 
interface; and, therefore, remain proprietary.
    An MOU formalizing the relationship between the public 
safety users and TIA created a steering committee comprised 
only of public safety and government representatives, and 
invested that committee with the sole authority to designate a 
P-25 standard, and did not limit it to only TIA-adopted 
standards. This is important, because that gives the control of 
the process to the radio users, and those users have called for 
immediate results.
    The Co-Chair of the P-25 steering committee recently 
informed the membership of TIA that an agreed-upon Inter-RF-
Subsystem-Interface, the ISSI document will be required by 
January of 2006. The ISSI is extremely important, in that it is 
the interface standard that will ultimately allow P-25 systems 
operated by different public safety entities to connect into 
one seamless network, when necessary. If this January deadline 
is not met, the steering committee will vote to begin an 
alternate process for developing an ISSI standard. The steering 
committee's plan is to issue a call for proposals to fully 
define an open ISSI standard, select the best proposal, and 
designate it as the P-25 standard.
    This same option can be exercised for all other remaining 
interfaces as well, if the steering committee is not satisfied 
with the progress within the TIA process. NIST will continue 
providing technical and engineering support to the steering 
committee so that it can meet its goals and timelines.
    In addition, Mr. Chairman, over the last 2 years NIST, with 
funds from the Department of Homeland Security and the 
Department of Justice, has tested a number of the handheld P-25 
radios that claim to meet the available Common-Air Interface 
standard. Using the test procedures called for in the standard, 
NIST found that none of the available radios met all aspects of 
the standard.
    Therefore, NIST, with the support of SAFECOM and the P-25 
steering committee, is developing a P-25 Conformity Assessment 
Program. NIST is preparing and documenting standardized test 
protocols for the most important aspects of the Common-Air 
Interface standard. The standardized test protocols will then 
be provided to NIST's National Voluntary Laboratory 
Accreditation Program, which can accredit third-party 
laboratories across the country interested in offering these 
testing capabilities.
    These conformance tests would go a long way in assuring the 
public safety community that the equipment being purchased 
meets the P-25 standard.
    In summation, Mr. Chairman, there are positive steps being 
taken by leaders within the public safety community, key 
Federal programs, the Congress, and industry to significantly 
change the current environment and move the state of standards 
for public safety forward. This time next year, there should be 
newly adopted P-25 interface standards that can be tied to 
grants and procurements, and radio users will have a mechanism 
in place to begin to ensure that the products they are 
purchasing truly do what is called for in the applicable 
standard.
    Again, I am honored to be here before this committee today, 
and I will be happy to answer any questions that you may have.
    [The prepared statement of Mr. Orr follows:]

   Prepared Statement of Dereck Orr, Program Manager, Public Safety 
      Communications Systems, National Institute of Standards and 
                           Technology (NIST)
    Thank you, Chairman Stevens and members of the Committee, I serve 
as the Program Manager for Public Safety Communications Systems in the 
Office of Law Enforcement Standards at the National Institute of 
Standards and Technology (NIST). NIST, a non-regulatory agency within 
the U.S. Commerce Department's Technology Administration, serves 
industry, academia, and other parts of the government by developing and 
promoting measurements, standards, and technology to enhance 
productivity, facilitate trade, and improve the quality of life.
    NIST's public safety communications program serves as the technical 
lead for several Administration initiatives focusing on communications, 
most importantly, the SAFECOM Program led by Dr. Boyd. NIST is involved 
in many of the key SAFECOM initiatives, including the Statement of 
Requirements, Public Safety Architecture Framework, testing and 
evaluation, and standards development. The strong partnership between 
SAFECOM and NIST is an excellent example within the Administration of 
multi-agency coordination and collaboration, and is something for which 
we at NIST are very proud.
    I will focus the remainder of my remarks this morning on the state 
of standards for public safety communications systems.
    Interoperability for public safety communications is defined as 
``the ability to share information via voice and data signals on 
demand, in real time, when needed, and as authorized.'' The public 
safety community expects that this level of interoperability will be 
available using equipment from multiple manufacturers, that they are 
transparent to the user, requiring little or no special knowledge of 
the system, and that they are not dependent on common frequency 
assignments.
    Achieving this definition of interoperability is not possible 
without the existence of standards that will define how the various 
components of a public safety communications system will interoperate, 
regardless of manufacturer. In fact, I would venture to say that in the 
absence of standards, achieving this level of interoperability would be 
impossible.
    Public safety users have recognized this for some time. 
Approximately fifteen years ago, representatives from local, state, and 
Federal public safety associations and agencies joined together to 
address the absence of available standards. They did this for two 
primary purposes. First was to ensure that interoperability could be 
achieved, assuming the use of equipment from multiple manufacturers. 
Second, through standards, the public safety community wanted to be 
able to take advantage of cost reductions associated with a more 
competitive land mobile radio market.
    Understanding the difficulty in specifying the complex operations 
of the various components of a land mobile radio system, the public 
safety community partnered with the Telecommunications Industry 
Association (TIA) to serve as the standards development organization 
(SDO) for this effort. Thus Project 25, or P-25 as we know it today, 
was launched.
    A commonly misunderstood aspect of P-25 is that it is comprised of 
a single standard. Instead, it is a suite of standards that specify the 
eight interfaces between the various components of a land mobile radio 
system (handheld to handheld, handheld to mobile unit, mobile unit to 
tower, etc.):

  <bullet> Common air interface--this interface defines the wireless 
        access between mobile and portable radios and between the 
        subscriber (portable and mobile) radios and the fixed or base 
        station radios;

  <bullet> Subscriber data peripheral interface--this interface 
        characterizes the signaling for data transfer that must take 
        place between the subscriber radios and the data devices that 
        may be connected to the subscriber radio;

  <bullet> Fixed station interface--this interface describes the 
        signaling and messages between the RFSS and the fixed station 
        by defining the voice and data packets (that are sent from/to 
        the subscriber(s) over the common air interface) and all of the 
        command and control messages used to administer the fixed 
        station as well as the subscribers that are communicating 
        through the fixed station;

  <bullet> Console interface--this interface is similar to the fixed 
        station interface but it defines all the signaling and messages 
        between the RFSS and the console, the position that a 
        dispatcher or a supervisor would occupy to provide commands and 
        support to the personnel in the field;

  <bullet> Network management interface--this interface to the RFSS 
        allows administrators to control and monitor network fault 
        management and network performance management.

  <bullet> Data network interface--this interface describes the RF 
        subsystem's connections to computers, data networks, external 
        data sources, etc.;

  <bullet> Telephone interconnect interface--this interface between the 
        RFSS and the Public Switched Telephone Network (PSTN) allows 
        field personnel to make connections through the public switched 
        telephone network by using their radios rather than using 
        cellular telephones;

  <bullet> Inter RF subsystem interface--this interface permits users 
        in one system to communicate with users in a different system, 
        from one jurisdiction to another, from one agency to another, 
        from one city to another, etc.

    Over the last fifteen years only one of the P-25 interfaces, the 
Common Air Interface that deals with the functions of the handheld 
units (i.e., walkie-talkie), has been advanced to a level where it 
would help satisfy one or both of the goals of P-25. The remainder of 
the interfaces either remains undefined, or lacks enough specificity to 
allow for a common implementation of the interface; in other words, 
each manufacturer's implementation of the interface is different and 
proprietary, thus, resulting in systems that do not meet the 
``interoperability'' requirements as defined by the steering committee.
    I would like to emphasize that the Common Air Interface is a major 
step forward and extremely important. It provides a level of 
interoperability and competition in the handheld market that was not 
available before. However, it alone cannot satisfy the definition of 
interoperability that the public safety community is calling for.
    An MOU formalizing the relationship between the public safety users 
and TIA, created a Steering Committee comprised only of public safety 
and government representatives and invested that committee with the 
sole authority to designate a P-25 standard. In addition, the MOU 
stipulates that the Steering Committee has wide latitude in defining 
and adopting P-25 standards, and does not limit it to only TIA adopted 
standards.
    To reinforce the need to expeditiously move forward on all 
remaining P-25 interface standards as prioritized by the Steering 
Committee, the Co-Chair of the P-25 Steering Committee informed the 
membership of TIA that an agreed upon Inter-RF-Subsystem Interface 
(ISSI) document will be required by January of 2006. If this deadline 
is not met the Steering Committee would vote to begin an alternate 
process for developing an ISSI standard. The Steering Committee's plan 
would be to issue a call for proposals to define an open ISSI standard, 
select the best proposal and designate it the P-25 ISSI standard.
    It needs to be made clear that it is everyone's desire that a 
consensus on these standards is needed and that formal TIA standards be 
adopted, and that the remaining P-25 interface standards be forthcoming 
within a time frame that satisfies the needs of public safety users and 
policymakers at all levels of government.
    It is not only important that the various P-25 interfaces are 
completed in a timely manner, but that a mechanism exist to ensure that 
products built to the standard, meet all of the requirements of the 
standard.
    Over the last two years, NIST, with funds from the Department of 
Homeland Security and the Department of Justice, has tested a number of 
the hand held P-25 radios that claim to meet the available Common Air 
Interface Standard. Using the test procedures called for in the 
standard, NIST found that none of the available radios met all aspects 
of the standard.
    NIST, with the support of SAFECOM and the P-25 Steering Committee, 
is developing a P-25 Conformity Assessment Program. NIST is preparing 
and documenting standardized test protocols for the most important 
aspects of the Common Air Interface Standard. The standardized test 
protocols will then be provided to NIST's National Voluntary Laboratory 
Accreditation Program (NVLAP), which can accredit third party 
laboratories across the country interested in offering these testing 
capabilities. These test protocols would go a long way in assuring the 
public safety community that the equipment being purchased meets the P-
25 standard.
    NIST is working closely with the P-25 Steering Committee and 
manufacturers to ensure that the test procedures are correct and that 
the results are accurate. In addition, not all aspects of the P-25 
common air interface will be immediately available for testing through 
this program. To begin with, NIST is focusing on some basic functional 
tests of the radios, which will allow us to get the Conformity 
Assessment Program up and running. We will then begin to add 
interoperability tests, as well as tests for more complex radio 
functions.
    In summation, Mr. Chairman, there are positive steps being taken by 
leaders within the public safety community, key Federal programs, the 
Congress and industry to significantly change the current environment 
and move the state of standards for public safety forward. This time 
next year, there should be new adopted P-25 interface standards and 
manufacturers will have begun to plan new products lines that 
incorporate the new standards. Local, state, and Federal agencies 
procuring P-25 equipment will have a mechanism in place to ensure that 
the products they are purchasing truly do what is called for in the 
applicable standard. In conjunction with the other efforts Dr. Boyd 
spoke of, I am confident that we are making significant headway in the 
pursuit of communications interoperability.
    NIST looks forward to working with this committee, Congress, our 
Federal partners, state and local public safety officials, and leaders 
in industry to make this happen. Again, I am honored to be here before 
this committee today, and I will be happy to answer any questions that 
you may have.

    The Chairman. Thank you very much.
    This is a difficult problem for us, because of how much it 
really interrelates to the difficulty of the spectrum bill 
we're going to act on this year. I'm trying to get the exact 
figures, but we were given the figures from CBO that indicate 
the return to the Government, for the Treasury, would be 
considerably higher--four to five times higher--if we postponed 
that date until 2009. We have an enormous demand that this take 
place no later than 2007, and hopefully in 2006. I don't know 
yet what the answer is going to be, but clearly we've been 
required by the budget resolution of this year to raise $4.8 
billion by action of this committee, and the only possible way 
to do that is by passing the spectrum bill. We hope that will 
be part of the reconciliation process and that will become law. 
If it is not, there will be no funds for interoperability 
within the coming years.
    So, I know we're all wanting to work on that. I've been 
informed by our staff that the estimate for just radios and 
equipment for interoperability would be over $15 billion. So 
far, our programs call for providing funds through the Justice 
Department's Office of Community Oriented Policing Services, 
COPS Program. And I'm told that there has been a substantial 
amount, around $92.7 million this year alone, allocated to 
enforcement agencies on that program. In addition, there was 
money that came out of other funds. I don't know the exact 
total of those, but I'm told somewhere around $900 million, so 
far, to deal with interoperability.
    But, Mr. Orr, I should interrupt to tell you this--you 
mentioned our dear friend, who's no longer with us, Senator 
Hollings. I don't know if you were the staffer, but he came 
back one time and told me he had been in Hilton Head, and a 
staffer had come up to him and said, ``Senator, you've got to 
go back to Charleston. They're telling lies about you in 
Charleston.'' And Fritz told him, ``No, I'm going to stay right 
here, they're telling the truth about me here.''
    [Laughter.]
    The Chairman. We miss his wit, and we miss his help. And he 
would be of great help to us on this one now.
    But can any of you tell us, What is the ability of local 
agencies to meet these needs? How much money do we really see 
that we have to have in the near term, say 5 years, from the 
Federal Government? Dr. Boyd, do you have any idea?
    Dr. Boyd. As you can imagine, that's a really tough 
question to answer. And the reason it's a tough question to 
answer is that there's no place in the United States you can go 
to, to find a picture of what the state of interoperability is 
in the United States. That's why we're undertaking a major 
baseline study that will produce results, probably around the 
middle of next year, that will give us the first genuinely 
statistically reliable picture of the state of interoperability 
across the country.
    NIST is involved in that activity. We're working closely 
with the Justice Department and others in doing this work, so 
that for the first time, we will be able to give you real 
grounded information about what that status is.
    The Chairman. We're going to have a hearing this afternoon 
from some of the companies that are involved in manufacturing 
these systems. I shall not be able to be here, because of the 
Defense bill on the floor. But from what Mr. Orr says, there's 
little probability we're going to have ``a system'' that we 
could say everyone should use, within the near term. Is that 
right, Mr. Orr?
    Mr. Orr. That would be correct. I think we'll have progress 
and movement toward more complete standards regarding P-25, but 
it is still some time before we'll see a full suite of P-25 
standards that will be applied.
    The Chairman. My time's almost up, but, Chief, you're the 
one that's in the trenches on this one. And you're here 
representing, as I understand, the International Association, 
right? APCO?
    Mr. Carter. Yes, sir.
    The Chairman. What is the suggestion from your people? What 
should we do? Should we mandate a series of items and say that 
those should be purchased with Federal funds? Should we get 
involved at all in delineating what will be acceptable use of 
Federal funds, as far as this interoperability question is 
concerned?
    Mr. Carter. I believe our perspective, from public safety, 
is that there may not be any one system that's going to 
accomplish interoperability nationwide. SAFECOM is doing some 
tremendous work to identify a variety of issues that we can 
pull together. But I believe that standards probably will be 
the answer. Someone's going to have to step up to the plate and 
say, ``This is the standard, and this is what we're going to 
do.''
    The Chairman. Well, we've got standards now, but we haven't 
got technology to meet the standards.
    Dr. Boyd?
    Dr. Boyd. Yes, sir, if I might add to that. For some time 
there are going to be a variety of systems that aren't going to 
work directly with each other, simply because the total 
installed base in the field right now is probably--and this is 
very conservative--somewhere in excess of $60 billion. The $15 
billion figure you referred to earlier is based on a study 
conducted 10 years ago that talked only about the portable 
units and the radios in the car.
    So, what that means is that we have to look at a system-of-
systems approach. That is, How are we going to make a lot of 
systems work together? We think we can do that, and the way 
we're directing the standards, working with NIST and the public 
safety community, is through common grant guidance, which the 
public safety community helped us put together, and which helps 
answer the questions: What will work here? What can you live 
with, given what you have now and what you know's going to be 
in place for quite a while?--so that we can use the common 
grant guidance to help steer all of the Federal grants. That 
guidance is now incorporated in every Federal grant program. As 
the standards come available, they'll be locked into that 
guidance as we continue to tighten the guidance around the 
standards process.
    The Chairman. Well, Chief, isn't the problem----
    I'm running over time, because I've just been called to the 
Homeland Security Conference on Appropriations, so I'm going to 
leave. I asked Senator Sununu to Chair. This will be my last 
question.
    Isn't the problem really that if you have a disaster, like 
Katrina or Rita, or even 9/11, when we call in responders from 
outside of the zone to come assist and really replace some of 
those that may be missing or unable to do their job, for one 
reason or another, isolated by storms or whatever, that the 
people that come in, they have to be interoperable with what's 
left there, don't they? I mean, it is a national problem, isn't 
it?
    Dr. Boyd. It's absolutely a national problem. But one of 
the points we want to make, and the public safety community 
will expand on this, is that a lot of the elements of 
interoperability already are there. What we first have to get 
in place are things like governance agreements and how we're 
going to work together. The agreements on this----
    The Chairman. Well, let me tell you this. I've been a pilot 
now for a long time. And when I fly, I get in a plane, and I go 
from Alaska to California. I just punch different numbers, and 
I'm totally interoperable wherever I am. I've never been in a 
plane that I couldn't reach the ground with, wherever I was, 
because that's the system of aircraft radios. Why don't we use 
radios like that for first responders? Why shouldn't you be 
able to say, you're on channel A if you're in California, 
you're on channel C if you're in Alaska, wherever--why can't 
you have this? Mr. Orr, why don't we have those kinds of radios 
for these people?
    Mr. Orr. That was the object--as I said in my opening 
statement, that was the object of Project 25. I think the issue 
is that industry has not come to consensus on this issue over 
the last 15 years, and the bottom line is, it needs closure. We 
need to finish these standards. Industry needs to come to 
consensus. Or some other action is going to be taken, as I was 
talking about during my opening remarks. There are alternative 
methods to make these standards, through the steering 
committee. But the bottom line is, industry, to date, has not 
come to consensus on creating those radios.
    The Chairman. The weather bureau has now given us radio 
availability that we can turn on wherever we are, as a pilot, 
and get local weather.
    Dr. Boyd. If I may, sir.
    The Chairman. That's interoperability.
    Dr. Boyd. I also have a commercial pilot's license, sir. If 
I may suggest, aviation is on a single band. In any given area, 
only a few hundred communicators are likely to be involved, and 
they're under a control system where they talk to the 
controlled operator. So, they talk under certain circumstances 
in a relatively small area. So, as control areas, you cross--
you know, whether you're on ground control or whether you're on 
approach, each of those are specified for a region, and they 
handle a relatively small number of stations.
    The public safety community, on the other hand, represents 
60,000 individual systems trying to control things and manage 
things within their own area of responsibility and representing 
some three million individual public safety operators. So that 
channels which can be identified in a region to handle a few 
hundred aircraft, when a channel is applied, for example, in 
his department, because the adjacent folks can't have that same 
channel without lots of prior coordination to pull together how 
that's going to work.
    You never wind up----
    The Chairman. It's not the technology problem that he's 
talking about, then.
    Dr. Boyd. Technology is only a piece of it.
    The Chairman. It's a volume of use problem.
    Dr. Boyd. Well, it's a combination of issues, I mean, with 
technology at the center. But most of the things required to 
achieve interoperability in the near term already exist. They 
require serious agreements, planning, governance kinds of 
arrangements across jurisdictions to work. In RapidCom, for 
example, in ten cities, we were able to establish an emergency 
command level of interoperability in each city with no new 
resources, simply by working with these communities, and the 
communities around each of those cities, to come together to 
agree on how they're going to approach these things. For 
example, in the aviation community----
    The Chairman. Well, I've got to leave, but if you move some 
of those people over to Chief Carter's area, they wouldn't be 
interoperable with him, would they?
    Dr. Boyd. If they've worked out these agreements in 
advance, they can be. And if we've identified what kind of 
patching equipment's going to be required, they can be.
    The Chairman. Is there any need for further involvement by 
the Federal Government, Mr. Orr, in mandating that this come to 
a closure?
    Mr. Orr. Certainly, at NIST we haven't talked about 
mandating coming, but we are providing all of our resources to 
give the users involved in Project 25 the technical and 
engineering resources to finish this out, and, with the support 
of people and programs like Dr. Boyd and SAFECOM, who will then 
take those standards that the P-25 steering committee 
designates and put it in the grant guidance, therefore putting 
the weight of Federal grants and procurement behind those 
standards, I do think we can move this forward in a much 
shorter amount of time than has been.
    The Chairman. I'd call the Committee's attention to the 
SAFECOM interoperability continuum chart that you have 
available. I think it's very informative, and we thank you for 
that.
    Thank you very much.
    Senator Sununu, will you start?
    Senator Sununu [presiding]. Thank you, Mr. Chairman.
    Not to panic. Senator Boxer and Senator Lautenberg, I don't 
know which of you were here next, but I'll certainly turn to 
Senator Boxer, then Senator Lautenberg for questioning.
    Go right ahead.
    Senator Boxer. Thank you so much. The only reason is that 
I've got another obligation that started 3 minutes ago. So, I 
will be brief.
    I think, since Senator Stevens told a Fritz Hollings story, 
I'm going to tell one, too, before he leaves, very quickly.
    Fritz, one day, turned to me, he says, ``You know why my 
wife and I get along so well?'' And, of course, like a good 
straight person, I said, ``Why?'' He said, ``We're both in love 
with the same person.''
    [Laughter.]
    Senator Boxer. And we really do miss him. I was in love 
with him, too, but--anyway.
    Here's the situation. I think we need more spectrum, better 
equipment, and better coordination. Does anyone disagree that 
those three things are important?
    [No response.]
    Senator Boxer. OK. And as I look at it, more spectrum, Mr. 
Chairman, I think that it does fall on us to make that happen. 
And we can make that happen as we look at this whole digital 
question. So, that's one.
    Better equipment. We have to help. We cannot unload a $15 
billion problem on the locals. And one that is really--this 
issue is dictated by our national circumstance. It's our 
national circumstance that we're a target of terrorists. It's 
our national circumstance if we have a disaster. This isn't 
something any State should feel responsible for.
    The third one is better coordination, and that's up to the 
locals. They have to tell us how we can help them do that.
    So, I guess my frustration, a little bit--I heard in the 
Chairman's voice, although sometimes we think we're in 
agreement, and it turns out we're not, but we might be--in 
this. Why is it going to take us to 2023, Dr. Boyd--2023--Lord 
knows where we'll all be then--to get this done? Is there 
anything we can do, as your helpers, to get this done sooner?
    Dr. Boyd. Well, first, let me make clear that 2023 was 
never identified as the date by which these things would 
happen. The date comes out of a meeting that we had with the 
public safety community, where we said, ``Look, forget 
everything that exists right now that you're thinking about, 
and tell us what the perfect world would be, and let's take 
2023 and say, by then, how would you like the world to look? 
What exactly are all the capabilities you'd like to have?'' 
That doesn't mean we're not interested in trying to make that 
happen----
    Senator Boxer. Well, I hear----
    Dr. Boyd.--sooner.
    Senator Boxer.--you. I'm glad you--my own view is, we don't 
have that much patience, those of us here. So, even if it isn't 
the perfect world, you know, we need to get to some better 
world, which leads me to my last question, of Chief Carter, 
which deals with what happened on the ground. In your written 
testimony, you said that all emergency response agencies in 
your parish in Louisiana operate on an 800 MHz radio system 
that provides good interoperability throughout the region. Is 
that right?
    Mr. Carter. That's correct.
    Senator Boxer. However, when some of your personnel went to 
help in New Orleans, following Hurricane Katrina, they were 
unable to operate their radios on the State systems due to 
software incompatibility, a problem that can only be fixed for 
$800 per radio, approximately. Is that correct?
    Mr. Carter. Yes, ma'am, that's correct.
    Senator Boxer. OK. If your department were to receive--and 
it might not be your department--if the appropriate departments 
were to receive sufficient funds to fix all your radios, at 
$800 apiece, would that be a good thing for you?
    Mr. Carter. It would be a great thing for us, in the event 
that we deploy personnel and equipment to an area like New 
Orleans, for instance, that is so far outside the operational 
boundaries of our system, yes, ma'am, absolutely.
    Senator Boxer. Mr. Chairman, the reason I asked that 
question is, a lot of times our eyes glaze over when we hear 
2023. Here is someone on the ground, Chief Carter, telling us, 
for $800 apiece, they can solve a major problem. I don't know 
why the Senate voted down, three times, money for this. Once 
was my amendment. So, I--it hurt my heart. I lost by one or two 
votes. I forget. One or two votes. Ridiculous. We need to do 
more, and not wait until 2023.
    And I just want to thank the whole panel, because I think 
you're smart, you're good, and we're going to need you. And why 
industry can't get their act together is something I don't get. 
But, certainly, if we, as a Congress, could come together and 
say, ``This is a priority,'' that should be enough incentive, 
in a capitalistic society, for them to step up to the plate 
with something that's going to help us through all this.
    So, Mr. Chairman, thank you very much.
    Senator Sununu. Thank you, Senator Boxer.
    Senator Lautenberg?

            STATEMENT OF HON. FRANK R. LAUTENBERG, 
                  U.S. SENATOR FROM NEW JERSEY

    Senator Lautenberg. Thanks, Mr. Chairman.
    Our order got a little mixed here, and because there's 
pressure with so many things going on, I don't want any of you, 
at the witness table, to feel that there's lack of interest. 
There's lack of time, but there's no lack of interest. And I 
thank you for your testimony.
    And coming from New Jersey, where we lost 700 people on 9/
11, and a large part of the loss was attributed to the fact 
that we couldn't communicate, and we had people running 
upstairs, rescue people--firefighters, emergency service 
people, and police, trying to get upstairs to help people, and 
it cost lots of lives of those servicepeople. So, we're 
particularly in tune with the question of interoperability.
    And I want to ask Chief Carter--and, again, thanks for your 
incisive testimony. Being on the ground there helps identify 
the problems, and rather quickly. Some cities, there's a 
wireless network, allows police anywhere in the city to send/
receive data, including photographs, car information, 
fingerprints to and from headquarters in real-time. Now, 
municipal WiFi, are you familiar with that, Chief Carter? It's 
the community's ability to have a communications system that 
may not be available from the conventional commercial channels. 
Municipal WiFi offers the best opportunity for this kind of 
technology to spread across the country, and yet some States 
are blocking cities from setting up their own network.
    Are you familiar enough with the WiFi systems to comment on 
whether or not the municipal networks offer a greater 
opportunity--more timely--for advancing police communications, 
at least? That means that they're going to be told what's going 
on, or in communication with those who are on the street or 
those who are on the particular assignment at that moment.
    Mr. Carter. In all honesty, I am not familiar enough with 
that technology to speak to it.
    Senator Lautenberg. OK. We're looking very closely at that.
    And, Mr. Chairman, I'm very hopeful about something that's 
happening. And I know that you, in particular, Senator Sununu, 
are very interested in the technology side of things. And that 
we have the prospect being developed right now of having a 
satellite communications system through cell phones, 
instruments as simple as that, that won't worry about the 
height of the towers that might be destroyed--the cell towers--
in a particular moment. So, we're fairly optimistic, very 
hopeful that that can be part of a solution to the problem.
    You know, I come out of the computer industry, and we tried 
to do whatever we could to advance the technology, et cetera, 
on our own, but we depended on different elements--manufacture, 
design, et cetera--to make it all happen. But here we have a 
problem so complex that I think the government has to be very 
careful in establishing standards that industry can meet and 
talk about without fear of violating any of the rules. And so, 
we're encouraged by that.
    Mr. Chairman, Senator Inouye, who couldn't be here; asks 
this question, Mr. Orr. An issue that you raise in your 
testimony is a need for some form of quality control to ensure 
that the devices marketed and sold as compliant with certain 
public safety standards are, in fact, compliant. To the point I 
was earlier making. ``Indeed, my staff,'' he says, ``has 
informed me that you have shared with them a demonstration of 
how certain public safety radios performed in compliance tests 
with P-25 standards. And could you tell us something about that 
testing, and perhaps even give us a brief demonstration of how 
it works?''
    Mr. Orr. Sure. And it was done in a laboratory in Boulder, 
Colorado, in the Department of Commerce labs. And, 
simplistically, setting up that test, what it does is, Project 
25 radios were developed to be the next generation of digital 
radios. Currently, the largest percentage of radios out there 
today, of course, are analog radios. Project 25 is meant to be 
the next generation digital radio. However--public safety, the 
manufacturers all understand there's going to be a migration to 
those digital radios, and there will be a lot of time between 
now and 2023, or whatever the time is, where you're going to 
have a mix of analog and digital radios. And the purpose of 
Project 25, and a part of the requirements of Project 25, is 
that it is backward compatible and can operate with--both in 
the digital environment and the analog environment. And so, you 
should be able--and are supposed to be able, with a Project 25 
radio, to be able to operate right--in contiguous bands and 
contiguous channels with an analog radio and an analog channel, 
and without having any interference between the digital and the 
analog channels.
    What this test is, is of two radios, one operating in--
well, they're operating in analog mode, and they're getting a 
digital interference signal, and it shows you what would happen 
currently with the P-25 radios if they were operating in a 
situation where there were digital and analog channels adjacent 
to each other. And, again, in the statement requirements for 
Project 25, these radios should have no problem doing what 
they're supposed to do, which is being audible.
    And so, the first sound file I'll play, you will actually 
be able to hear the voice.
    [Audio played.]
    Mr. Orr. So, that's a person in wideband analog mode on a 
Project 25 radio, getting some minimal interference from an 
adjacent channel operating in digital mode. You can still hear 
the voice.
    The next radio is another Project 25 radio, same 
circumstances.
    [Audio played.]
    Mr. Orr. So, obviously there's a wide variation in how the 
standard is being implemented. Now, this demonstration isn't 
meant to show that there are radios out there that are causing 
lives lost. Obviously, very few radios out there today are 
Project 25, so you don't have a situation where you have a 
whole lot of ultra-wide--or wideband--or analog and digital 
radios operating in adjacent channels. However, as we start to 
migrate to digital, you will start to have that, and buyers 
won't even know whether or not their radio is going to allow 
them to operate the way they expect it to operate.
    And so, what we're doing is creating a conformance testing 
program, along with SAFECOM, that will allow public safety to 
make correct buying decisions based on what their needs are 
from the radio, and understand how they operate.
    Senator Lautenberg. Mr. Chairman, I ask unanimous consent 
that an opening statement that I would have made be included in 
the record.
    And I assume that the record will be kept open for 
questions. We've run out of time, and I don't want to overuse 
mine.
    Senator Sununu. Without objection, so ordered.
    [The prepared statement of Senator Lautenberg follows:]

            Prepared Statement of Hon. Frank R. Lautenberg, 
                      U.S. Senator from New Jersey
    Mr. Chairman,
    9/11 revealed serious problems with our ability to communicate 
during a disaster.
    When firefighters and police couldn't talk to one another, we all 
became familiar with the term ``inter-operability.''
    Hurricane Katrina gave us another wakeup call.
    It reminded us that before we can have inter-operability during a 
disaster, we need operability.
    After last month's deadly storm, almost all of the communications 
systems that we take for granted were shut down in the affected region.
    The wireline telecommunications network sustained enormous damage. 
According to BellSouth, the largest wireline provider in the region, 
more than three million phone lines were knocked out of service.
    Local wireless networks also sustained considerable damage as 
thousands of cell sites and many wireless switches were knocked out of 
service.
    Radio and TV broadcasters play an important role in providing 
information during an emergency. But of the 41 broadcast radio stations 
located in New Orleans and the surrounding area, only two AM and two FM 
stations remained on the air immediately after the storm.
    This event made clear that we need a backup plan for communications 
during a disaster.
    We need ``redundancy'' in networks, including the 9-1-1 emergency 
system, and we need alternative sources of power.
    I would encourage this committee and the FCC to consider how we put 
in place redundant systems that can withstand disasters--both natural 
and terrorist.
    These could include satellite communications and VoIP telephone 
service such as that provided by Vonage, and other technologies.
    The big lesson that we must learn from this disaster is that we can 
never be too prepared.
    Thank you, Mr. Chairman.

    Senator Sununu. Let me ask a few questions here about the 
P-25 standard. I don't know a great deal about some of the 
technological developments that you're discussing, but you 
talked a lot about conformance testing and standard development 
and certification. This is a process that began 15 years ago, 
correct?
    Mr. Orr. Correct.
    Senator Sununu. And I will use the word ``you'' here, but I 
understand ``you'' haven't been working on it the whole time. 
You're not responsible for all of this. There are obviously a 
lot of people. So, I don't want you to take my line of 
questioning personally.
    How much money has been spent on the project over the last 
15 years, roughly?
    Mr. Orr. I really can't answer that, because the project 
itself is an industry project. It's completely industry-driven. 
However, it does have that public safety contingent that I 
talked about. From a Federal perspective of how much support 
we've been given, I would estimate maybe $2-3 million. And 
we've only been involved lightly up until----
    Senator Sununu. So, the Federal support is relatively 
modest. Obviously----
    Mr. Orr. Right.
    Senator Sununu.--the big cost is going to be in replacing 
all of these radios.
    Mr. Orr. Yes.
    Senator Sununu. There are eight interfaces that you're 
trying to standardize. Only one of the eight has been developed 
so far, correct?
    Mr. Orr. Correct.
    Senator Sununu. How much longer is it going to take to 
develop the other seven?
    Mr. Orr. What we've done is, we've worked with and assisted 
the public safety community, the steering community involved in 
P-25--to prioritize the remaining interfaces, which ones are 
most important that need to be covered. They have declared to 
the industry, ``Stop working on all other interfaces except the 
following.'' And so, right now, the next one teed up--there are 
two teed up. There's actually a fixed-station interface. But 
the most important one is the ISSI I spoke about in my opening 
statement. And that--the fixed-station, they expect to have a 
standard, or at least a de facto standard, done October, so 
next month, which is a major achievement for Project 25. And 
then the ISSI, which is a very major achievement, they're 
expecting to have a document that can be balloted and voted on 
by January--done by January and balloted and voted by March.
    Senator Sununu. Realistically, a couple more over the next 
12 to 18 months.
    Mr. Orr. I would be very happy if we got three over the 
next----
    Senator Sununu. OK.
    Mr. Orr.--12 months.
    Senator Sununu. So, we're talking about a time frame of, 
frankly, years to complete all eight. And then, obviously, the 
purchase of compliant equipment, radio equipment's going to be 
required. Did you have an estimate for the total cost for 
people to comply with this standard and meet the standard?
    Mr. Orr. It should be fairly low. First of all, the current 
plans for the conformance testing is that NIST----
    Senator Sununu. No, no, no, I'm talking about replacing the 
radios.
    Mr. Orr. Oh.
    Senator Sununu. We're talking about billions----
    Mr. Orr. No, no. We----
    Senator Sununu.--of dollars----
    Mr. Orr. Yes, absolutely.
    Senator Sununu.--$10, $15, $20 billion, something like 
that. OK. I mean, my question is, for all of this work that has 
been done, starting a 15-year time frame--granted, the 
development's going on now--whether or not the whole approach 
is, quite frankly, outdated. You know, this is a device that 
has IP capability. And, granted, this is not a public safety 
communication device. But the idea is that this can communicate 
to anyone else with an IP address, anywhere in the world, let 
alone anywhere in the country. And, obviously, depending on my 
access to the IP network, it could be WiFi, it could be the 
municipal network Frank Lautenberg is talking about, it could 
be a local area network on a wireless, it could also be a wire-
based. But it's an IP device. The IP protocol has obviously 
proven itself to be pretty robust, pretty capable. It's an 
existing interface standard, if you will, that can be enhanced 
by different features.
    It seems to me it would be a little bit less expensive, a 
little bit more straightforward, to implement a system using 
that kind of an interface, rather than try to develop, 
standardize, test, adopt standards, and then have to have 
everyone spend a great deal of money to replace all of these 
radios. What is wrong with that thinking?
    And, Dr. Boyd, why don't we let Mr. Orr respond, but I'm 
certainly very interested in your response to that, as well.
    Mr. Orr. They will probably be very similar, I would 
imagine. I would just say that, on your statement, much of 
Project 25, as it moves forward, is IP-based. We are basing it 
on available IP standards, and it will be based on the kind of 
technologies that you're thinking of, as well.
    Senator Sununu. So, given that, why is this taking so long, 
and why are we presupposing that so many devices out there have 
to be, sort of, switched out or will be rendered non-
compatible? Obviously, there are a lot of radios out there that 
aren't IP-compatible. But why are the costs of implementation 
assumed to be so high, given that there's such a large and 
growing number of IP-compatible networks out there now?
    Mr. Orr. The hope is that once a system like Project 25, 
based on IP, is implemented, it will actually bring down the 
costs, and they will be able to reap the benefits of the kind 
of cheaper equipment that people--that consumers today are able 
to take advantage of in the marketplace.
    Senator Sununu. Dr. Boyd?
    Dr. Boyd. The IP-based approach that the commercial 
networks use is predicated on a number of things that don't fit 
well in the public safety environment. One is an infrastructure 
which is largely wired or fiber or connected on that basis, so 
that they don't have weak signal problems and they don't have 
time-of-arrival problems over large distances, as you will tend 
to have in IP radio--many of those things haven't yet been 
adequately----
    Senator Sununu. Time-of-arrival problems?
    Dr. Boyd. OK----
    Senator Sununu. Are you talking about----
    Dr. Boyd.--if you have a packet----
    Senator Sununu.--wait packet?
    Dr. Boyd.--if you have a series of packets, the series of 
packets are transmitted from a device. A packet is really what 
IP is transmitting. That the order in which they arrive, and 
how often they arrive, begins to create all kinds of problems. 
Some are issues associated with collisions. Those are managed 
by routers and by servers in the cellular system. And cellular 
systems are designed around an infrastructure that has a 
relatively short range. Cellular is in a fairly small box.
    The public safety guys, on the other hand, have to serve 
the entire county. And they can't--they have some trouble in 
relying on a commercial infrastructure, which is probably one 
of the first things that will collapse, because these are 
infrastructures that are traditionally built to about a 10 
percent overcapacity. In fact, we exceed that normally during 
rush hour every afternoon.
    Senator Sununu. Well, I understand your point about not 
necessarily wanting to rely on an exclusively commercial 
infrastructure, but I seem to say--or you seem to say that 
there are latency problems that wouldn't make an IP system 
effective over an area larger than a county.
    Dr. Boyd. No, I'm not saying that. What I'm saying is, 
there are more technical problems there than--in this kind of 
environment than you're going to find in the cellular or the 
wired environment.
    I think the critical point I'd make is that, whatever 
system you decide to put in place has to meet their 
requirements. What I told industry recently was, there are lots 
of opportunities for commercial activities, whether it's IP-
based or satellite systems or others----
    Senator Sununu. But what----
    Dr. Boyd.--that help provide----
    Senator Sununu. I'm sorry. I apologize for interrupting, 
but you seem to use the words ``commercial'' and ``IP'' 
interchangeably.
    Dr. Boyd. No.
    Senator Sununu. And just because something is IP doesn't 
mean it's commercial.
    Dr. Boyd. No. That's correct.
    Senator Sununu. OK.
    Dr. Boyd. But if you go to IP, remember that there are very 
few IP-capable radios currently in the field.
    Senator Sununu. I suppose----
    Dr. Boyd. In public safety.
    Senator Sununu.--in public safety. And, I mean, quite 
frankly, I have to wonder if that's, in part, because of all of 
the micro-management and manipulation that's--well intended, 
but all of the micro-management and manipulation that comes 
from--whether it's Federal level or State level--but us trying 
to force a standard on them, and whether or not that 
discourages some of the innovation and adoption of new 
technologies when they're available. I don't know that that's 
the case, but I think it's a question that is certainly worth 
asking.
    Dr. Boyd. I think you've made the most critical point to be 
made here. I think, in fact, you've made it----
    Senator Sununu. Well, now you're just----
    Dr. Boyd. No, I think you've made----
    Senator Sununu.--drawing on flattery.
    [Laughter.]
    Dr. Boyd. You have made exactly the case that we've been 
arguing for, for some time--and I think Chief Willis and others 
will agree--and that is that we believe this has to be driven 
by the first responders themselves, that it's not appropriate 
to tell them what they have to have. We should be listening to 
them. We should be listening to what their requirements are. 
Then we should be responding to that. And that's the way we've 
built the entire SAFECOM program, so that Chief Willis and 
APCO, for example, are critical players in helping to do 
exactly those things.
    But, I agree with you, it has got to be driven at that 
level. It can't be pushed down on them.
    Senator Sununu. Thank you, Dr. Boyd.
    Senator Pryor?

                 STATEMENT OF HON. MARK PRYOR, 
                   U.S. SENATOR FROM ARKANSAS

    Senator Pryor. Thank you, Mr. Chairman.
    I want to ask, if I can, about just a mechanical aspect of 
what we saw in Katrina. It's my understanding that some of the 
systems that were in place down there on the Gulf Coast, as I 
understand it, were designed to withstand a hurricane, and to 
survive a hurricane. And my impression is, many of these 
systems, that were supposedly hurricane proof, failed. In fact, 
I saw some towers--you all have seen the pictures where all the 
towers are just bent over, broken in half, basically. And so, 
my question, for whoever wants to take it, is, first, Is that 
assumption correct, that there are systems down there in place 
that were supposed to be hurricane proof? And, second, if 
that's the case, what happened to them? Why did they fail?
    So, who wants to answer that?
    Mr. Carter. I believe that there were a number of systems 
in south Louisiana. As a matter of fact, all those systems were 
designed to be hurricane proof to some degree. I'm not totally 
sure that they were designed to be hurricane-proof to the 
degree that Katrina hit us. As far as the damage, the wind, of 
course, is one of the causes that damaged the radio networks. 
Following the wind, the break of the levees caused the 
flooding, which, of course, then knocked the power out. So, 
there were a number of issues that caused many of those sites 
to fail. The wind, of course, initially, for a lot of them. And 
I, too, saw--when I went on my trip down there, radio towers 
that were basically broken in half. So, I can only assume that, 
although those towers were designed for hurricane-force winds, 
they were not designed for a Category 4 or 5, which is what we 
actually got.
    Senator Pryor. When I see that, I think, if they are 
designed for hurricane-force winds, you know, I'd be curious 
about seeing the specs on what they were designed for. And, 
second, I'd be curious about what the marketing was for the 
companies that sold these systems to the localities down there, 
to the various companies and governments, et cetera.
    And, third, I would want to know about any--not so much 
design defects, in that maybe they weren't designed properly--
and maybe they weren't, but I'd want to know about that--but 
I'd also want to know if there were issues of rust or wear-and-
tear or lack of maintenance, you know, those types of things. 
Now, are you familiar with--can you answer any of those 
questions for me?
    Mr. Carter. No, sir, probably not, especially not 
specifically to the systems in the south part of the State.
    Senator Pryor. OK. Does anybody else want to take a stab at 
any of that? Any impressions that you have?
    Dr. Boyd. Of course, these systems are managed locally, so 
that's the right place to go to, to ask that kind of question.
    Senator Pryor. Right. In other words, we'll have to get 
inside of the facts of each specific case to see.
    Also, my impression is that some of the systems failed 
maybe due to lack of planning, and, to some extent, lack of 
design, because--I've heard something very practical--that 
generators were down on the ground level, even in basements, 
and they flooded. And, you know, of course, they lost their 
power source. Are you all familiar with those stories, as well? 
Are those stories true? And, you know----
    Dr. Boyd. I can tell you, there's a major effort in the 
Department to collect lessons learned and that kind of 
information. And so, the Department is going to be talking 
about the kinds of things they found. But it's still a little 
early for us to know what those things are. Right now, it's the 
recovery effort that's most important.
    Senator Pryor. Sure.
    Well, we've heard a lot of--like you, we've heard a lot of 
anecdotal stories about things that went right and things that 
went wrong. And so, part of what we are doing here is the 
oversight of all this.
    One thing, by the way, I want to say--I know we have to 
take a break here in just a moment, Mr. Chairman, because we 
have to vote on Judge Roberts here, momentarily--but one thing 
I'd like to say is, some of the companies have really done a 
great job after Katrina to try to, not just restore services to 
their people, but also some of the nuts and bolts of even 
suspending billing during this time, you know, things like 
that. And some of these companies, I think, really do deserve 
quite a bit of credit for the actions they've taken in the 
aftermath of Katrina.
    Mr. Chairman, I do have a few more questions, but maybe it 
might be better if we submit those for the record, given the 
shortness of our time here.
    Senator Pryor. And supposedly, as I understand it, the 
leadership would like us to be over there before the vote 
starts.
    Senator Sununu. The Senator is correct. And, without 
objection, the record will be held open for 2 weeks, so that 
Members may submit additional questions.
    Senator Sununu. Any other comments or questions, Senator 
Pryor?
    Senator Pryor. No, thank you.
    Senator Sununu. I had one final question for Mr. Moran. How 
much spectrum is available exclusively for public safety use? 
Is 97 MHz the right number?
    Mr. Moran. At the present time it's not the right number, 
because the 24 MHz in the 700 band, at this point, in many 
parts of the country, is not usable exclusively for public 
safety because of the broadcast issues----
    Senator Sununu. OK.
    Mr. Moran.--that you've mentioned earlier.
    Senator Sununu. So, that'll be a correct number once we 
complete our work and----
    Mr. Moran. Yes, it will be.
    Senator Sununu.--pass a----
    Mr. Moran. Yes, it would be.
    Senator Sununu.--a transition bill.
    Thank you very much. Thank you, to all of our witnesses.
    The hearing's adjourned.
    [Whereupon, at 11:17 a.m., the hearing was adjourned.]
                            A P P E N D I X

   Prepared Statement of Hon. Bill Nelson, U.S. Senator from Florida
    Mr. Chairman, thank you for holding today's two hearings on 
communications in disasters.
    Last week, Members of this committee raised multiple communications 
issues and proposed various solutions.
    I have focused many of my efforts on a couple proposals that I 
think could make a huge difference to our Nation's emergency 9-1-1 
system and make our citizens safer during disasters.
    One of the tragedies caused by Hurricane Katrina was the crippling 
of the 9-1-1 emergency network. Key 9-1-1 centers were either knocked 
out by water or were overloaded with calls. This left citizens with no 
way to call for help and it severely hampered rescue efforts.
    Because the current 9-1-1 system doesn't have built-in 
redundancies, once a local 9-1-1 center fails, there is no backup. But 
digital technology can fix this problem.
    S. 1063 (which I introduced and is cosponsored by Senators Burns, 
Snowe, Clinton, and Kerry) would require the Federal Government and 
industry to develop a plan to quickly move the Nation's emergency 
networks from the old analog system to a more robust, Internet-based 
network. This updated system would allow emergency phone calls to be 
automatically rerouted from a damaged 9-1-1 call center to the next 
nearest call center. LIVES WILL BE SAVED.
    This bill also ensures that the millions of people who use Internet 
phone service would be able to have full E-9-1-1 capabilities.
    I thank the Co-Chairs of this committee for their supportive words 
about S. 1063, which was introduced last May. The recent hurricanes 
show that it's time for this committee to pass this bill and move it to 
the full Senate.
    I look forward to hearing the witnesses, and I thank the Chair.
                                 ______
                                 
 Prepared Statement of Hon. Daniel K. Inouye, U.S. Senator from Hawaii
    Today, the Committee continues its examination of the effectiveness 
of our Nation's communications networks in the wake of Hurricanes 
Katrina and Rita and now turns its attention to the communications 
challenges faced by first responders in times of crisis as a result of 
the devastation caused to the physical infrastructure and the lack of 
interoperable equipment.
    While today's hearing will inevitably focus on how to ensure 
communications ``interoperability,'' among first responders, we must 
not lose sight of the fact that New Orleans had in place an 
interoperable communications system, but when the basic communications 
capabilities failed that system was rendered useless. Therefore, even 
if interoperable communications systems are developed and deployed, 
they will provide little help if the communications network itself does 
not survive the disaster.
    A key step to ensuring that the Nation is prepared for the next 
disaster requires us not only to focus on obtaining the latest and 
greatest technology, but also on building and maintaining resilient 
networks. I hope that the witnesses today will help us understand what 
steps can be taken to ensure that terrestrial networks are constructed 
with foresight to anticipate and harden against failures. Additionally, 
this Nation must plan for worst-case scenarios by integrating redundant 
systems, both terrestrial and satellite, for situations where the best 
laid plans fail to prevent communications outages.
    Turning to the crisis-level lack of interoperability that has 
plagued our first responders since September 11, Congress must make 
policy decisions that will stimulate the development and deployment of 
emergency ready, interoperable, redundant wired, wireless and satellite 
networks. The lack of interoperability cannot blithely be blamed on a 
single issue. This breakdown is occurring on several levels.
    To ensure robust interoperability, in the most basic terms, there 
are several key elements that must be addressed. First, we need to 
ensure that proper planning, coordination and training exercises are 
implemented in advance of a disaster. To have emergency readiness, we 
must be emergency tested. Second, we need technology that is capable of 
communicating seamlessly between and among the affected first 
responders at the local, state and Federal level, regardless of 
equipment or frequencies utilized. Third, we need to allocate the 
necessary spectrum to enable robust communications systems to be built. 
Fourth, we must establish a system of quality control to ensure the 
technology developed for use in these systems is reliable. Finally, we 
need to provide funding to deploy and maintain these systems. None of 
these elements alone will solve our interoperability failures. They 
must all be addressed in a coordinated manner or leave our Nation 
vulnerable in the face of future disasters whether natural or man-made.
    I look forward to the testimony of the witnesses.

                                  <all>

</pre></body></html>
